                              United States Department of State
                              and the Broadcasting Board of Governors

                              Office of Inspector General
Office of Inspector General

                              Semiannual Report to the Congress


                              April 1, 2009, to September 30, 2009
                               Summary of OIG Accomplishments


Financial Results:
Questioned costs
         Issued during the reporting period                                                                 $ 56,039,000
         Management decision during the reporting period                                                       $55,162,000

Recommendations for funds to be put to better use
         Issued during the reporting period                                                                    $8,100,000
         Management decision during the reporting period                                                               $0

Investigative monetary recoveries                                                                              $1,358,294

Investigative Results:
Cases opened ............................................................................................................. 60

Cases closed ............................................................................................................... 54 

Criminal actions ........................................................................................................... 156

Civil actions ................................................................................................................. 7

Administrative actions................................................................................................. 38 

Hotline and complaint activity ..................................................................................... 487


Reports Issued: 60

                       Picture on the front cover: Embassy Zagreb, Croatia
                Picture provided by Ofﬁce of Overseas Buildings Operations



                                         Requests for additional copies of this
                                         publication should be addressed to:

                                                   Ofﬁce of Inspector General
                                                    U.S. Department of State
                                                      OIG/EX, Room 810
                                                    1700 North Moore Street
                                                      Arlington, VA 22209



                                        Department of State Publication 11462
                                                Ofﬁce of Inspector General
                                     TABLE OF CONTENTS




MESSAGE FROM THE ACTING INSPECTOR GENERAL................................................ 1

EXECUTIVE SUMMARY.................................................................................................... 3

CONGRESSIONAL ACTIVITIES AND OUTREACH ........................................................ 13



DEPARTMENT OF STATE
MIDDLE EAST REGIONAL OFFICE ................................................................................ 21

AUDITS ............................................................................................................................ 29

INSPECTIONS ................................................................................................................. 37

INVESTIGATIONS............................................................................................................ 63

APPENDIX 1: DEPARTMENT OF STATE INVESTIGATIVE ACTIVITIES........................ 69

APPENDIX 2: REPORTS ISSUED................................................................................... 71

APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES ................... 75

APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS .................... 77

APPENDIX 5: AUDITS PERFORMED BY CONTRACTORS ........................................... 89



BROADCASTING BOARD OF GOVERNORS
AUDITS ............................................................................................................................ 93

INSPECTIONS ................................................................................................................. 95

INVESTIGATIONS............................................................................................................ 97

APPENDIX 1: BBG INVESTIGATIVE ACTIVITIES .......................................................... 99

APPENDIX 2: REPORTS ISSUED................................................................................. 101

APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES ................. 103

APPENDIX 4: AUDITS PERFORMED BY CONTRACTORS ......................................... 105



ABBREVIATIONS ........................................................................................................... 107

MESSAGE FROM THE ACTING INSPECTOR GENERAL



                                          I am pleased to present the Office of Inspector
                                          General (OIG) Semiannual Report to the Congress
                                          for the Department of State (Department) and the
                                          Broadcasting Board of Governors (BBG). This re-
                                          port covers the period ending September 30, 2009,
                                          as required by the Inspector General Act of 1978,
                                          as amended.

                                   This is the third semiannual report I have issued
                                   since arriving as Acting Inspector General in June
      Acting Inspector General,    2008, and I am happy to report that after more
          Harold W. Geisel         than a decade of declining resources, OIG is well
                                   on the road to recovery and greater productivity.
Our “get well, stay well” plan is on track. Financial resources from base and supple-
mental appropriations in FY 2009 were nearly double that of our FY 2007 appro-
priation. Staffing has grown more than 20 percent during the same period. Beginning
with a single overseas office in Amman in January 2008, our Middle East Regional
Office (MERO) now has boots on the ground in Cairo, Baghdad, and Kabul, with
a fifth office scheduled to open in Islamabad during the first half of FY 2010. In
September, MERO held its first regional conference in Cairo, which was attended by
30 OIG staff and several speakers from the oversight and diplomatic communities
who spoke about topics such as intergovernmental relationships, enhancing democ-
racy and quality of life programs, and lessons learned. Furthermore, our Middle
East Investigative Branch has enhanced OIG’s operations with the ability to respond
rapidly to allegations of suspected criminal activity in one of the Department’s most
challenging environments in the world.

This successful growth has effected a substantial demand for OIG products, as
evidenced by Congressional designation of funding for OIG oversight of programs
and activities related to the Middle East, West Bank and Gaza refugees, the Presi-
dent’s Emergency Program for AIDS Relief, and the American Recovery and Re-
stabilization Act. The Department and Congress have presented OIG with a grow-
ing number of requests, including the Review of Voice of America’s Deewa Radio
Journalistic Controls, Limited-Scope Audit of Management/Internal Controls over
the J. William Fulbright Scholarship Fund, Pakistan, and Management Review of the
Office of the Historian, Bureau of Public Affairs. Our report recommendations are




Office of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009   1
having a signiﬁcant impact as well, with nearly $65 million in potential cost efﬁcien­
cies and savings identiﬁed during this reporting period, and $1.3 million in investiga­
tive recoveries.

OIG continues to prove that if it is given the resources to do the job, it will deliver
the results that matter to the Administration, the Congress, and the American people.
With the Administration’s decision to eliminate future supplemental funding for
work in the Middle East, OIG is looking for ways to maintain its high performance
standards while making its operations more efﬁcient and effective, and deliver a
better return on investments. With help from the Department, the Ofﬁce of Man­
agement and Budget, and Congressional appropriators, we hope to secure a level
of funding that will allow OIG to continue the restoration of capabilities that have
made these results possible.




                                                        Harold W. Geisel
                                                        Acting Inspector General




2       Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
                               EXECUTIVE SUMMARY



The auditors, inspectors, investigators, and other                                  Recognition for
professionals within OIG promote effective management,                            Excellence within the
                                                                                    OIG Community
accountability, and positive change in the Department,
the BBG, and the foreign affairs community. During this
                                                                                The Council of Inspectors
reporting period, OIG identified nearly $66 million in                          General on Integrity and Ef-
potential cost efficiencies—including funds to be put to                        ficiency (CIGIE) approved
better use, fines, and recoveries—and issued 60 reports                         two awards for the Depart-
with recommendations to improve the Department and                              ment’s OIG. The Office of
BBG programs and operations. A full list of reports                             Audits Passport Information
issued during this period can be found in Appendix 2 of                         Electronic Records System
each agency section of this report.                                             (PIERS) Review Team earned
The following Semiannual Report to the Congress (SAR)                           an Award for Excellence in
summarizes work carried out by OIG during the period of                         Evaluations. The six-person
April 1, 2009, through September 30, 2009.                                      group’s timely and efficient
                                                                                review of the controls over
                                                                                access to records in PIERS
                                                                                identified many improvements
Middle East Regional Office                                                     needed by the Department to
                                                                                safeguard personally identifi-
In this SAR period, OIG’s Middle East Regional Of-                              able information. The Office
fice (MERO) issued reports on four performance audits                           of Investigations’ Operations
of worldwide personal protective services, two reviews                          Division merited an Award for
                                                                                Excellence in Administrative
related to Regional Embassy Offices (REO) in Iraq, a per-
                                                                                Support. The 11-person team’s
formance audit of transition planning for a reduced U.S.
                                                                                accomplishments include as-
military presence in Iraq, and a limited-scope audit of the
                                                                                sisting in the rebuilding of the
J. William Fulbright Scholarship fund in Pakistan.
                                                                                office from 16 to 44 full-time
In its performance audit of Triple Canopy’s personal pro-                       employees, establishing a
                                                                                computer forensic operation,
tective services in southeastern Iraq, OIG concluded that
                                                                                and providing logistical support
Triple Canopy effectively ensured the safety of chief of
                                                                                in opening three OIG field of-
mission personnel. However, several issues were identified
                                                                                fices in the Middle East.
regarding staffing, training, maintaining contractor files,
and the selection, maintenance, and use of armored pro-
tection vehicles. OIG echoed previous recommendations
to resolve both staffing issues and inadequate contract monitoring, and also recom-
mended that the Bureau of Diplomatic Security (DS) implement a geographically
suitable armored vehicle package and provide standard road vehicles for administra-
tive transportation.


Office of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009          3
OIG determined in Jerusalem that Triple Canopy offered effective personal protection
by qualiﬁed personnel and properly secured government-furnished equipment. How­
ever, regional security ofﬁcers at Consulate General Jerusalem did not review personnel
rosters to verify their accuracy or completeness, and contracting ofﬁcer’s representative
(COR) responsibilities were not fully executed on-site, including review of invoices.
Maintenance issues with armored vehicles were also noted. OIG recommended DS en­
sure that regional security ofﬁcers review and verify the accuracy of personnel rosters,
better deﬁne COR duties, offer COR training, and ensure adequate contract manage­
ment, including invoice review.

In Iraq, OIG’s performance audit of DynCorp’s personal protective services revealed
that DS special agents did not review or sign personnel rosters. The distance from the
maintenance facility created challenges in maintaining armored vehicles. OIG recom­
mended DS make certain DynCorp provide personnel in required labor categories and
ensure its special agents reviewed and veriﬁed DynCorp personnel rosters. At Embassy
Baghdad, OIG highlighted a solution used in Kirkuk to improve long-range radio com­
munication and recommended acquiring more ﬁeld communication expertise.

OIG conducted a performance audit of the U.S. Training Center’s (USTC) contract for
personal protective services in Afghanistan and found DS generally managed USTC
well. However, OIG found USTC security specialists lacked a speciﬁc type of security
training, as well as cultural awareness training for Afghanistan. OIG also found weak­
nesses in USTC’s training of explosive detection canines and storage of explosives, as
well as problems with the aluminum rims on armored vehicles. OIG recommended DS
assign a dedicated COR to Embassy Kabul, review and verify personnel rosters, ensure
appropriate training, make certain canines are properly tested, ensure explosives are
correctly stored, implement a tailored armored vehicle tire package, and analyze protec­
tion needs in Afghanistan.

OIG reviewed REO Hillah in Babil Province, Iraq and noted the Department spent
more than $75 million annually for the REO to support one Provincial Reconstruction
Team (PRT). OIG recommended accelerating the closure of REO Hillah, stopping or
curtailing all capital improvement projects, relocating PRT and U.S. Government em­
ployees to a nearby army base, curtailing or transferring security and support staff, and
decommissioning and returning the Hillah hotel property to the Iraqi Government.

At the time of MERO’s performance audit of REOs in Iraq, only REO Hillah re­
mained active. In May 2009, REO Basra was folded into PRT Basra, which had inad­
equate housing, ofﬁce space, and other life support services. In February 2009, REO
Kirkuk was closed, and most of its operations transferred to Regional Reconstruction
Team (RRT) Erbil. Ofﬁce space and lodging at the RRT compound were less than
adequate, but the Department was reluctant to approve relocation or extensive repairs
until an Administration decision on U.S. Government presence in northern Iraq. Rec­
ommendations regarding REO Hillah were included in an earlier report. In this report,
OIG concluded that the facilities at current and former REO locations were inadequate

 4      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
for consular operations. Therefore, OIG recommended that, upon receiving policy
direction from the Administration, Embassy Baghdad develop a detailed plan to
establish consulates in Iraq.

OIG concluded in its transition report that planning for the U.S. military drawdown
in Iraq is essential. However, at the time of OIG’s work, the Embassy had no overall
transition plan or senior level coordinator. Key issues identiﬁed included: meeting
security needs; developing plans to manage and complete infrastructure projects;
alternatives to housing, food services, and other life support services currently
provided by the Logistics Civil Augmentation Program; air transport for U.S. Gov­
ernment ofﬁcials; and replacing U.S. military personnel working on PRTs, as well as
continued PRT support. OIG recommended the Embassy develop a transition plan,
assign an overall coordinator, ensure effective contract management and oversight of
infrastructure projects, and determine required logistical and program support and
associated resource needs with requests for additional funds as necessary.

At the request of the U.S. Ambassador to Pakistan, OIG performed a limited-scope
review of the management and internal controls over the J. William Fulbright Schol­
arship Fund in Pakistan. OIG made recommendations to the Bureau of Educational
and Cultural Affairs (ECA) to improve weaknesses in ﬁnancial reporting and ac­
counting, as well as the grantee selection process, which are carried out by a Pakistani
foundation. In particular, this review resulted in the identiﬁcation of $8.1 million that
could be put to better use if ECA ensured that grant estimates were reviewed and
revised by individual grantee.



Ofﬁce of Audits
OIG contracted with external auditors to audit the ﬁnancial statements of the De­
partment. The independent external auditor identiﬁed internal control weaknesses
and recommended the Department take appropriate action to address weaknesses,
related to the following areas:
•    fund balance with the Treasury,
•    accounts receivable and payable,
•    payroll issues,
•    payroll documentation,
•    personal property and real property,
•    information security, and
•    bilateral agreements.
OIG and the Special Inspector General for Iraq Reconstruction performed a joint
audit of the Department’s contracts and task orders with Blackwater Security Con­
sulting for Iraq. The total estimated costs for these contracts and task orders were
over $1 billion. The contracts were funded primarily with Department Diplomatic


Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                5
and Consular Programs funds, and about $76 million of Iraq Relief and Reconstruc­
tion Funds. OIG found the Department needed to make improvements in admin­
istering one of the contracts and provide more stringent oversight of Blackwater’s
cost and performance in Iraq. OIG recommended the Department designate a full-
time COR on-site in Iraq to verify labor charging data entered there and to monitor
Blackwater’s control and accounting for government-furnished property; determine
whether deductions to the contract price for inadequate stafﬁng are needed and, if
so, the amount of these deductions; and recover the remaining excess travel costs of
$70,907 billed by Blackwater.

During the audit of Embassy Jakarta’s contract and procurement process for selected
projects, OIG found the Embassy did not fully comply with applicable contract and
procurement laws, regulations, and Department policies. Speciﬁcally, the Embassy
did not always obtain appropriate approvals for construction projects, and it used
incorrect appropriations amounting to approximately $397,000 to fund certain proj­
ects. In addition, the Embassy did not maintain adequate documentation for OIG
to determine whether the costs charged to a tenant agency for alterations to ofﬁce
space were supported and necessary. Further, embassy personnel did not prepare
adequate independent government estimates, approved changes to contract speci­
ﬁcations without obtaining contract modiﬁcations, and did not always document
the reasons for the changes or for their monitoring and inspections of contractor
performance. Finally, embassy personnel did not always comply with regulations and
policies relating to blanket purchase agreements. OIG recommended the Embassy
improve its management oversight of the procurement process and that it work with
Overseas Buildings Operation (OBO) to inspect the construction projects, correct
funding for projects for which incorrect funds were used, and determine whether the
alterations associated with the tenant agency were supported and appropriate.

In its audit of the Department’s timeliness of payments subject to the Prompt Pay­
ment Act (PPA), OIG found the Department’s interest penalties increased dramati­
cally in FY 2008 to $5.4 million, from $405,000 paid in FY 2006. Through its ran­
dom sample, OIG found that 56 percent of the Department’s domestic FY 2008
payments subject to PPA were not timely. Almost 80 percent of the interest penalties
were assessed against four of the Department’s bureaus, and 10 vendors received
over half of the interest penalties paid. Interest penalties increased primarily because
of delays in processing invoices caused by the change to a new accounting system.
The Department resolved some of the problems that occurred during implemen­
tation of the system, but it has not addressed the delays resulting from the more
detailed review and approval process established at the time of implementation.

In its report Audit of Property Accountability, Inventory Controls, and Encryption of Lap-
top Computers at Selected Department of State Bureaus in the Washington, DC, Metropolitan
Area, OIG found the Department did not have an accurate accounting for, and
had not encrypted all of, its laptop computers for the four bureaus included in the


6        Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
audit. Three of the four bureaus were not able to fully account for some of the
laptop computers in the sample OIG selected. Contrary to the Department’s ofﬁcial
inventory records, OIG was unable to inspect 119 laptop computers in its revised
sample size of 334 because they were missing (27); were not physically located in the
Washington, DC area, or were otherwise unable to be physically inspected (35); or
had been disposed of (57). Of the 215 that were physically inspected, 172 were not
encrypted and 43 were encrypted. For the 27 missing laptop computers, Department
ofﬁcials could not determine the disposition of 23 of them. By the end of OIG’s
ﬁeldwork, the bureaus had taken actions to locate and some had encrypted their
laptop computers. However, additional measures were needed to address inventory
controls, encryption policies and procedures, and security awareness training track­
ing, and OIG made recommendations to address these deﬁciencies.

OIG contracted with a certiﬁed public accounting ﬁrm to perform agreed-upon pro­
cedures on indirect cost rates under the provisions of applicable Ofﬁce of Manage­
ment and Budget circulars. The independent accountants determined the accounting
system of the National Committee on United States-China Relations, Inc., was ad­
equate for accumulating and reporting its indirect costs under applicable provisions
of the circulars. However, the accountants identiﬁed errors and inconsistencies in the
rate calculations. The accountants made appropriate adjustments and recommended
that ECA accept and ﬁnalize the recomputed indirect cost rates for FYs 2007, 2006,
2004, and 2003.



Ofﬁce of Inspections
During this semiannual reporting period, OIG inspected the Bureau of Consular Af-
fairs Passport Services; Executive Ofﬁce of the Bureau of Diplomatic Security; Ofﬁce of the His-
torian, Bureau of African Affairs; Ofﬁce of the U.S. Special Envoy for Sudan; and conducted
an Interagency Evaluation of the Section 1206 Global Train and Equip Program. OIG also
conducted full inspections of 14 overseas missions, including Embassies London,
Baghdad, and Mexico City. During the course of its inspections, OIG identiﬁed best
practices as well as potential cost efﬁciencies and other improvements. OIG also pro­
vided security inspections for all 14 overseas missions, which are summarized in the
classiﬁed annex of this report.

A series of crises in the Bureau of Consular Affairs (CA) Passport Services
(CA/PPT) in recent years shifted CA’s focus from systems development, fraud pre­
vention, and overseas consular operations to its large domestic operation. CA/PPT
had responded to surges in workload, unauthorized intrusions into passport records,
and unfavorable publicity about antifraud weaknesses. Dramatic changes in passport
demand and workload in the past 3 years had challenged CA/PPT to adjust stafﬁng
levels to meet current and future demand. Despite several attempts at reorganizing


Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                7
staff and realigning responsibilities in recent years, CA/PPT was still not appro­
priately organized or staffed to maximize its support of a growing number of ﬁeld
ofﬁces and its many complex policy issues. Centralization of passport processing and
production had been successful and cost efﬁcient, enabling agencies to focus more
on adjudication and customer service.

Reﬂecting the enhanced threats facing the United States, DS was in a period of un­
precedented expansion, directly impacting the Bureau’s Executive Directorate (DS/
EX). The overall DS budget, which DS/EX manages, had grown from $350 million
in FY 1995 to $2.6 billion in FY 2009. In FY 2009, DS/EX will process 426 new
personnel and is scheduled to absorb an additional 484 in FY 2010. DS/EX was
bearing the brunt of this expansion and was coping despite staff shortfalls, resource
constraints, and its outdated organizational structure. DS/EX was providing an ad­
equate level of support overall; however, it will need signiﬁcant increases in support
staff and resources to keep up with the demands facing DS in the next few years.

The Under Secretary for Management asked OIG to conduct a follow-up inspection
of a report by a special review panel, which noted concerns within the Ofﬁce of the
Historian (HO). HO is responsible by law for the publication of the Foreign Rela­
tions of the United States (FRUS) series, an account of major U.S. foreign policy de­
cisions within 30 years of the events recorded. The 30-year deadline has rarely been
met, and the mismanagement of the human resources made available for the FRUS
could threaten further delay. HO has a large number of contractors—12 of its 49
positions. This means increased costs: OIG estimates each contractor costs the U.S.
Government about $12,000 more per year than a direct-hire employee. The propor­
tions also mean increased instability in an ofﬁce requiring a high degree of education,
training, and experience to carry out its responsibilities. HO needs an administrative
ofﬁcer as well as additional direct-hire positions for historians.

The Bureau of African Affairs (AF) was performing well in light of having to man­
age constant crises. However, the undercurrent of dissatisfaction with the uneven
quality of leadership affected recruitment to key positions in some cases and reten­
tion in others. Stafﬁng in overseas posts remained problematic, and locally employed
staff compensation has fallen behind cost of living and comparators’ salaries. OIG
recommended AF hire enough direct-hire contract specialists to provide oversight
of its security program contracts. If the Bureau cannot provide the proper oversight
of the peace support operations and security programs it runs, then the day-to-day
implementation of peace support operations, capacity building, programs, events,
and activities should become the responsibility of the U.S. Africa Command in keep­
ing with what is already the norm in other geographic bureaus.

The Ofﬁces of Inspectors General for State and Defense conducted a joint evalua­
tion of the Section 1206 Global Train and Equip Program, an initiative ﬁrst autho­
rized by Section 1206 of the National Defense Authorization Act for Fiscal Year
2006. The team found, in the countries the team visited, the program had succeeded


 8       Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
in building the capacities of foreign militaries to combat terrorism or to participate
with the United States in operations in which the United States is a participant. The
program was thus succeeding in fulﬁlling the purposes of Section 1206. The pro­
gram’s structure included processes to ensure that the program would be conducted
in compliance with all applicable laws. However, the team found opportunities for
management to improve the effectiveness and efﬁciency of the processes for project
selection, program execution, and project implementation. The team’s overseas visits
disclosed a series of execution problems. Because the program was designed to re­
spond to “emergent threats and opportunities,” these problems slowed the achieve­
ment of the program’s goals. During the course of the review, the Departments of
Defense and State began management actions to develop and reﬁne the Section 1206
program further.

With strong leadership and a dedicated staff, Embassy Baghdad had advanced the in­
terests of the United States by helping the Iraqis improve security, promote reconcili­
ation, and take steps toward the creation of a stable, representative government. The
Embassy must make a transition from a large, sprawling wartime entity where people
and resources have been mobilized to implement hundreds of projects and programs
to a more normal diplomatic mission in which it will have constraints on personnel
and funding. Embassy Baghdad was overstaffed for its evolving mission. The OIG
team recommended the Embassy and the Department conduct a rightsizing review
to help strike a better balance between personnel and mission requirements and
synchronize with the Department’s assignment process. The Embassy did not have a
sufﬁciently rigorous, high-level review process to ensure that all proposed new hires
and extensions of current employees were fully warranted, and should proceed with
its plans to implement such a process. In the interest of rightsizing and the most ef­
fective use of declining resources, Embassy Baghdad and the Department needed to
conduct a reassessment of U.S. assistance programs in Iraq.

At the time of the inspection of Embassy London, consular sections in the United
Kingdom were handling the most diverse caseload in the world, and demand was the
highest in Europe. Antifraud cooperation among sections and agencies was critical to
ensuring quality adjudication of visa and passport applications. After recent terrorist
attacks in the United Kingdom, the political section formed an interagency work­
ing group to study radicalization among disaffected young Muslims and to cooper­
ate with the U.K. Government on ways to counter this trend. Ofﬁcers throughout
the Embassy, including the political and economic sections, were spending up to 50
percent of their time supporting the 18,000 ofﬁcial visitors who travel to London an­
nually. The Embassy was looking at ways to reduce the visitor load without impairing
U.S.-U.K. relations.




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                9
Ofﬁce of Investigations
OIG launched an investigation in March 2008 after the media reported that three
different Department contract employees, on three different occasions, improperly
accessed the passport ﬁles of three presidential candidates through the Passport
Information Electronic Imaging System (PIERS). OIG subsequently received ad­
ditional information that improper accessing of PIERS records was widespread, and
involved many Department employees and contractors. During this reporting period,
the investigation yielded six separate criminal prosecutions, 25 written admonish­
ments, and numerous referrals for disciplinary action of both Department and
contract employees.

Other investigations this reporting period included allegations of conﬂict of inter­
est, embezzlement, and employee misconduct. This investigative work resulted in 11
referrals for prosecution; 129 months total of imprisonment and probation sentenc­
ings; 3 indictments; 6 convictions; 24 administrative referrals; and more than $1.3
million in recoveries. OIG also gave 22 fraud awareness presentations to approxi­
mately 900 Department and BBG employees.



International Broadcasting
During the audit of BBG’s 2008 and 2007 ﬁnancial statements, OIG’s independent
external auditor identiﬁed internal control weaknesses or instances of noncompli­
ance with selected provisions of applicable laws and regulations relating to property,
plant, and equipment; undelivered orders; government purchase cards; grants man­
agement; information security; payroll; and non-personnel expenses. The external
auditor recommended that BBG take appropriate action to address these weaknesses.

OIG also reviewed the journalistic controls of Voice of America (VOA)’s Deewa Ra­
dio. Its target audience is the Pashtun population on the Pakistan side of the coun­
try’s troubled border region with Afghanistan. Deewa Radio provides the United
States with a vital communications link to a region of major signiﬁcance to U.S. for­
eign policy and national security. OIG found an effective review system was in place
at Deewa Radio and the South Asia division of VOA that ensures the broadcasted
material meets VOA standards for accuracy and balance. If Deewa Radio continues
to grow, VOA will have to take into account its staff size and training requirements
to maintain continued effectiveness and quality.

OIG conducted an investigation of a BBG employee who received Metrocheck
beneﬁts even though she was driving to work almost daily. OIG interviewed the
employee, who admitted to her activities and immediately repaid BBG $3,780 for the
cost of the Metrochecks. The Department of Justice declined the case for criminal
prosecution; however, BBG proposed termination for the employee.


10      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
MERO Hosts First Conference in Cairo
     At a time when com­
munication and coordi­
nation among inspector
general teams are most
critical, the Middle East
Regional Ofﬁce hosted
its ﬁrst conference in
Cairo, Egypt, to help the
OIG community interact
more effectively in the
region. The 3-day con­
ference, held at MERO’s
newly opened ofﬁce in
Cairo, September 15-17,
2009, brought the entire Ambassador Margaret Scobey (far right) discusses Department of
MERO staff together State       programs in Egypt with (left to right) MERO Assistant Inspector
                          General Nick Arnston, Department of State Acting Inspector General
for the ﬁrst time. Join­ Harold Geisel, and MERO Deputy Assistant Inspector General Pat
ing the team were the     Dickriede.
Department’s Acting Inspector General Harold Geisel, representatives from the
Ofﬁce of the Executive Director and Ofﬁce of General Counsel, and members of
                                                                      the inspector general
                                                                      community from the
                                                                      GAO, the Department
                                                                      of Defense (DoD), and
                                                                      USAID.

                                                                     The program, which
                                                                    addressed the chal­
                                                                    lenges of working in
                                                                    the region, featured
                                                                    experts in program
                                                                    management and
                                                                    oversight. U.S. Ambas­
                                                                    sador to Egypt, Mar­
                                                                    garet Scobey, discussed
Conference participants listen as U.S. Ambassador to Egypt          Egypt’s role in the
Margaret Scobey (seated at the head of the table) gives her keynote
address.                                                            Middle East and the
                                                                    Department’s relation­
ship with the Egyptian Government. Mickey McDermott, DoD’s Deputy Inspector
General for Southwest Asia and Joe Christoff, GAO Director of the International


Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                11
Affairs and Trade Team for Iraq, shared how lessons learned in Iraq can be applied
to Pakistan and Afghanistan. The Cairo USAID Mission Director discussed the im­
pact of USAID programs in Egypt and the effect such programs can have on other
countries’ development. Acting Inspector General Harold Geisel explained how in­
                                                 teraction with people in the region
                                                 enhances coordination efforts and
                                                 enables analysts and auditors to
                                                 ﬁnd out what is really happening,
                                                 so that issues can be properly ad­
                                                 dressed.

                                                                  One of the conference goals
                                                             was to give members of the OIG
                                                             community a better perspective
                                                             on how to approach their work.
                                                             Participants discussed common is­
                                                             sues they face and how to be more
Bambi Arellano, Cairo USAID Mission Director, points
to a graphic that illustrates the success of USAID pro-    proactive in recommending ways to
grams in Egypt.                                            strengthen program management
                                                           and contract oversight.

    MERO opened its regional ofﬁce, the ﬁrst permanent Department of State OIG
ofﬁce outside the United States, on January 23, 2008, in Amman, Jordan. Eighteen
months later, in June 2009, MERO
opened a permanent satellite ofﬁce
in Cairo. Two temporary (5-year)
satellite ofﬁces are located in Bagh­
dad, Iraq and Kabul, Afghanistan.
Plans are underway to open an
additional temporary satellite ofﬁce
in Islamabad, Pakistan.

     MERO’s forward regional pres­
ence has signiﬁcantly enhanced
OIG’s ability of to identify po­
tential savings and cost efﬁcien­     Jacqueline Bell, USAID Regional Inspector General
cies. The ofﬁce plans, coordinates, (center) discusses USAID oversight with conference
                                      participants. Seated on the left is Miguel Sapp, OIG/
and executes OIG activities in 33     MERO and on the right, Dianna Wolridge OIG/EX
countries in Northern Africa, the
traditional Middle East, and South/Central Asia. It provides real-time information
on matters affecting high-cost, high-risk programs in critical crisis and post-conﬂict
areas such as Iraq, Afghanistan, Pakistan, the Palestinian Territories, and other coun­
tries throughout the region.


 12       Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
     CONGRESSIONAL ACTIVITIES AND OUTREACH



Testimony
During this reporting period, Acting Inspector General Harold W. Geisel testiﬁed on
September 9, 2009, before the House Oversight and Government Reform’s Subcom­
mittee on National Security and Foreign Affairs on current and planned oversight,
as well as oversight coordination for Pakistan and Afghanistan. He testiﬁed with the
Inspectors General from the Department of Defense, U.S. Agency for International
Development (USAID), Government Accountability Ofﬁce, and the Special Inspec­
tor General for Afghanistan Reconstruction. Beyond the current inspections and re­
views, the subcommittee wanted the Inspectors General’s views on how they would
oversee the proposed additional $3 billion a year for 5 years that pending legislation
would provide in new foreign assistance to Pakistan.



Congressional Mandates
In response to legislative mandates and requests from Congress, OIG issued the
reports below.

As mandated in P.L. 110-181, Section 842, and P.L. 111-32, the following report
which met requirements in these statutes, was issued:

     • 	 Performance Audit of Embassy Baghdad’s Transition Planning for a Reduced United
         States Military Presence in Iraq (issued August 2009). (MERO-A-09-10)

OIG is an original member of the Southwest Asia Joint Planning Group and, prior
to enactment of P.L. 110-181 and P.L. 111-32, OIG had planned and initiated the
following reviews and audits, which met requirements in these statutes:

     • 	 Status of the Secretary of State’s Panel on Personal Protective Services in Iraq Report
         Recommendations (issued December 2008). (MERO-IQO-09-01)

     • 	 Review of Diplomatic Security’s Management of Personal Protective Services in Iraq (is-
         sued January 2009). (MERO-IQO-09-02)

     • 	 Performance Audit of the Triple Canopy Contract for Personal Protective Services in Iraq
         (issued April 2009). (MERO-IQO-09-03)

     • 	 Joint Audit of Blackwater Contract and Task Orders for Worldwide Personal Protective
         Services in Iraq (issued June 2009). (AUD/IQO-09-16)


Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                13
      • 	 Performance Audit of the DynCorp Contract for Personal Protective Services in Iraq (is-
          sued June 2009). (MERO-IQO-09-06)

As mandated by the Chief Financial Ofﬁcers Act of 1990 (P.L. 101-576, as amend­
ed), OIG directed and monitored the following ﬁnancial statement audits and other
work conducted by an independent external auditor:

      • 	 Management Letter Related to the Audit of the U.S. Department of State 2008 and
          2007 Financial Statements (AUD/FM-09-11)

      • 	 Independent Auditor’s Report on the International Boundary and Water Commis-
          sion, United States and Mexico, U.S. Section, 2008 and 2007 Financial Statements
          (AUD/FM-09-17)

      • 	 Management Letter Related to the Audit of the International Boundary and Water Com-
          mission, United States and Mexico, U.S. Section, 2008 and 2007 Financial Statements
          (AUD/FM-09-18)

      • 	 Independent Auditor’s Report on the Foreign Service Retirement and Disability Fund,
          2008, 2007, and 2006 Financial Statements (AUD/FM-09-19)

      • 	 Management Letter Related to the Audit of the Foreign Service Retirement and Disability
          Fund, 2008, 2007, and 2006 Financial Statements (AUD/FM-09-20)



Congressional Requests
In response to a request from Representative Steven Kirk, a member of the House
Appropriations’ Subcommittee on Foreign Operations, OIG issued “Review of
Voice of America’s Deewa Radio Journalistic Controls.” The review examined the pro­
cesses and procedures in place at Deewa Radio and Voice of America that are used
to ensure the accuracy and balance of Deewa Radio’s broadcasts. (ISP-IB-09-67)
http://oig.state.gov/documents/organization/126646.pdf

In response to a request from nine members of the House Appropriations’ Subcom­
mittee on Foreign Operations, the OIG initiated a review of U.S. funding for the UN
Relief and Works Agency for Palestine Refugees in the Near East (UNRWA).




 14        Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Legislation Monitored
OIG reviewed and monitored a number of legislative proposals including the follow­
ing legislation during this semiannual report period:

    • 	 H.R. 2346, the 2009 Supplemental Appropriations Act, P.L. 111-32, signed into
        law on June 24, 2009, which provides OIG with $10.9 million in supplemen­
        tal funding for oversight activities in the Middle East and South Asia.

    •    	S. 2001, Duncan Hunter National Defense Authorization Act for Fiscal Year 2009.
          P.L. 110-417, as it pertains to oversight issues.

    • 	 H.R. 5501 (formerly S. 2731) Tom Lantos and Henry J. Hyde United States Global
        Leadership Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act of
        2008, which became P.L. 110-293 on July 30, 2008. This requires the Inspec­
        tors General of the Department of State, USAID, and the U.S. Department
        of Health and Human Services jointly develop ﬁve coordinated annual plans
        for oversight activity (ﬁnancial audits and performance reviews) for ﬁscal
        years 2009 through 2013 for programs authorized under this Act and Section
        104A of the Foreign Assistance Act.

    • 	 H.R. 3081 and S. 1434, Department of State Foreign Operations and Related Pro-
        grams Appropriations. Not enacted.

    •    	S. 962, Enhanced Partnership with Pakistan Act of 2009 and H.R. 1886, Pakistan
          Enduring Assistance and Cooperation Enhancement Act of 2009. Not enacted.

    •    	H.R. 2410, Foreign Relations Authorization Act, Fiscal Years 2010 and 2011. Not
         enacted.

    •    	Tranche 3, Foreign Relations Authorization Act. Not enacted.

    • 	 H.R. 2740, the Military Extraterritorial Jurisdiction Act (MEJA) Expansion and
        Reinforcement Act of 2007, which would require Inspectors General working in
        any military theater of operations to coordinate their work with a newly cre­
        ated theater investigative unit within the Federal Bureau of Investigation. Not
        enacted.

    •    	H.R. 2420, International Climate Cooperation Re-Engagement Act of 2007, which
         would assign oversight responsibility for the newly created International
         Clean Energy Foundation to OIG. Not enacted.

    • 	 H.R. 1469 and S. 991, the Senator Paul Simon Study Abroad Foundation Act of
        2007, as introduced in the House and Senate. Both bills assign oversight re­
        sponsibilities for the newly created foundation to OIG. Not enacted.


Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                15
Media Assistance and Outreach
During this semiannual period, OIG made its reports available to the media both
directly and online through regular postings on its Web site. Media expressed interest
in a broad range of OIG activities and initiatives resulting in 22 direct responses to
14 different issues.

Listed in order of interest, the issues that drew the greatest number of media inqui­
ries were the following:
      • 	 Investigation into the drug-overdose death of a DynCorp contractor in
          Afghanistan (4)
      • 	 Middle East Regional Ofﬁce review of Triple Canopy (Iraq and Jerusalem)
          and DynCorp (Iraq) personal protective services contracts (3), as well as
          inquiries speciﬁcally related to Blackwater Worldwide/U.S. Training Center
          transition of duties and departure from Iraq (1)
      • 	 Background on the Africa Bureau inspection and compliance procedures (3)
      • 	 Background on Representative Kirk’s request and status of the Radio Deewa
          inspection (2)
      • 	 Updates on the locally-employed staff compensation inspection (2)
      • 	Deﬁnition of terms used in the laptop audit report, as well as compliance
          procedures (2)
Additional inquiries included: general questions regarding the Persian News Net­
work inspection; compliance with recommendations in MERO’s interim report on
the Regional Embassy Ofﬁce in Hillah, Iraq; follow-up questions regarding the Of­
ﬁce of Historian inspection; status of the Departments of State and Defense joint
audit of DynCorp’s police training in Afghanistan; status of an investigation into
allegations of DynCorp off-duty misconduct; background on MERO’s report on the
Department’s transition planning for a reduced U.S. military presence in Iraq; general
questions about past OIG inspections in Afghanistan; and general questions regard­
ing the annual Department ﬁnancial audit.

Acting Inspector General Harold Geisel was interviewed by several media
outlets, including:

      • 	 C-SPAN’s “Washington Journal” and appeared on the program’s July 27
          broadcast, responding to questions from the host as well as a nationwide
          call-in audience regarding the OIG Embassy Baghdad inspection report.

      • 	 A reporter from Foreign Policy magazine regarding key ﬁndings in OIG’s
          Africa Bureau inspection report, resulting in a feature article on August 13.




 16       Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
American Recovery and Restabilization Act
The American Recovery and Restabilization Act (ARRA), passed on February 17,
2009, included more than $250 million for oversight by the Inspectors General of
the 23 Federal agencies responsible for disseminating $787 billion in ARRA funding.
OIG received $2 million to ensure that the $600 million appropriated to the Depart­
ment will meet the high standards of accountability, transparency, and effectiveness
envisioned in the Recovery Act.

OIG has been an active participant in the Recovery and Transparency Board (RATB)
Working Group and its coordinated efforts with the IG community to ensure trans­
parency and accountability in the use of Recovery Act funds. ARRA activities during
this reporting period included participation in an RATB-initiated survey of whether
qualiﬁed acquisition and grant personnel are overseeing Recovery Act funds. OIG
incorporated objectives into scheduled inspections and compliance followup reviews
to evaluate controls and systems in Bureau of Administration ofﬁces responsible for
activities related to ARRA-funded projects. OIG also initiated a contract audit of
the U.S. Section of the International Boundary and Water Commission’s controls for
tracking and reporting ARRA Funds. Reports on these activities are expected to be
released during the next semiannual reporting period.




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                17
18   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
U.S. DEPARTMENT OF STATE

20   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
                  MIDDLE EAST REGIONAL OFFICE




Performance Audit of the U.S. Training Center
Contract for Personal Protective Services in
Afghanistan (MERO-A-09-08)

The Department’s contract for personal protective services with the U.S. Training
Center (USTC) in Afghanistan is generally well-managed by the Bureau of Dip­
lomatic Security (DS), but could improve in two areas, both of which have been
mentioned in previous OIG reports: inadequate contract oversight and a failure to
review or verify USTC personnel rosters. OIG found USTC personal security spe­
cialists were properly trained, except for a speciﬁc type of security training unique to
operating in Afghanistan as well as cultural awareness training focused on Iraq rather
than Afghanistan. OIG pointed out these insufﬁciencies, and DS began correcting
both issues. OIG also found weaknesses in: USTC’s training of explosive detection
canines, as well as storage of explosives, both of which may impact testing effective­
ness; and problems with the aluminum rims on fully armored protection vehicles.
USTC’s plans for additional staff members would result in a disproportionate num­
ber of leaders to team members. USTC was also suggesting a level of personnel at
two proposed U.S. Consulates that may not be required. Finally, OIG learned the
Department is considering integrating Afghan nationals into its protective services.

OIG recommended that DS: assign a dedicated contracting ofﬁcer’s representative to
Embassy Kabul; review and verify the accuracy of personnel rosters; ensure personal
security specialists receive appropriate training for Afghanistan; make certain USTC
properly tests its canines and correctly stores explosive testing materials; implement
a fully armored vehicle tire package tailored to the Afghan terrain; and perform a
detailed analysis of protection needs in Afghanistan.




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                21
Performance Audit of Embassy Baghdad’s
Transition Planning for a Reduced
United States Military Presence in Iraq
(MERO-A-09-10)

U.S. Government ofﬁcials in Iraq depend on the U.S. military’s support to help carry
out many aspects of their mission. Thus, the U.S. military drawdown will have a
profound effect, and planning by Embassy Baghdad for this transition is essential. At
the time of OIG’s review, although there was some operational level planning at the
Embassy, there was no overall transition plan or senior level coordinator. However,
Embassy Baghdad had formed, and was participating in, several groups addressing
the changing military environment.

The departure of the U.S. military raises some key issues requiring resolution includ­
ing: meeting security needs; developing plans to manage and complete infrastructure
projects; alternatives to and potentially higher costs of housing, food services, and
other life support services now provided by the Logistics Civil Augmentation Pro­
gram; air transport for U.S. Government ofﬁcials currently using military aircraft for
travel in and out of the country; and replacing U.S. military personnel working on
Provincial Reconstruction Teams (PRT), as well as continued support of the PRTs.
OIG made several recommendations to the Embassy for transition planning. These
recommendations included developing a transition plan, assigning an overall coor­
dinator, ensuring effective contract management and oversight of infrastructure proj­
ects, determining required logistical and program support, and verifying associated
resource needs with requests for additional funds as necessary.

Some of OIG’s recommendations were already being implemented. By mid-July
2009, the Embassy had developed a draft transition plan and established a central
planning cell. Department and Embassy ofﬁcials were in the process of identifying
costs associated with the U.S. military drawdown. These ofﬁcials were working to
lessen dependence on the military and examining joint use of assets and structures.



Memorandum Report on the Preliminary
Review of the Second Worldwide Personal
Protective Services (WPPS II) Contract Task
Orders (MERO-A-09-12)

DS contracts with Triple Canopy, the U.S. Training Center (formerly Blackwater), and
DynCorp for personal protective services around the world, including in Jerusalem,
Iraq, and Afghanistan. OIG intended to conduct audits of four task orders under


22      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
these contracts and carried out a preliminary review to determine whether there
were sufﬁcient documents to perform the announced audits. Per Federal Acquisi­
tion Regulation (FAR) 4.805, contract ﬁles listed in FAR 4.803 must be retained for
a minimum of 6 years and 3 months after the disbursement of the ﬁnal payment on
the contract. OIG requested a total of 136 contract and procurement documents
from the Ofﬁce of Acquisition Management and received 28 for review. Based on
insufﬁcient documentation during its preliminary review, OIG cancelled the audits.
OIG concluded it would continue to conduct either follow-up compliance reviews
of previous inspections, or schedule new audits or inspections to verify that con­
tracting records are being properly maintained by the Ofﬁce of Acquisition Manage­
ment as required by FAR.



Memorandum Report on the Limited-Scope
Review of Management and Internal Controls
over the J. William Fulbright Scholarship Fund
in Pakistan (MERO-I-09-07)

At the request of the U.S. Ambassador to Pakistan, OIG performed a limited-scope
review of the management and internal controls over the J. William Fulbright Schol­
arship Fund in Pakistan. The United States Educational Foundation in Pakistan
(USEFP) supervises the Fulbright Scholarship Fund, and between October 1, 2004,
and September 30, 2008, received approximately $83.5 million from the Depart­
ment’s Bureau of Educational and Cultural Affairs (ECA), USAID, and the Higher
Education Commission Pakistan. Since FY 2005, USEFP has successfully handled a
substantial increase in grantee students, ensured student diversity, and made the Ful­
bright Program accessible to more potential students. However, OIG found weak­
nesses in USEFP’s budgeting and ﬁnancial reporting, ECA’s oversight of USEFP’s
ﬁnancial processes, and in USEFP’s accounting and grantee selection processes.

OIG recommended that ECA, in coordination with Embassy Islamabad, improve
USEFP’s management and internal controls, institute an accounting system capable
of grant accounting, submit timely ﬁnancial reports, employ a controller, and review
and revise grant estimates by individual grantee. OIG further recommended on-site
reviews and OIG audits. Finally, OIG recommended instituting consistent grantee
selection practices and procedures.




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                23
Review of the Roles, Stafﬁng, and
Effectiveness of Regional Embassy Ofﬁces in
Iraq (MERO-I-09-09)

Regional Embassy Ofﬁces (REO) projected an active U.S. Government presence in
Iraq’s outlying provinces. When OIG announced this audit in December 2008, there
were three REOs operating, but only REO Hillah remained active at the time of
the review. Operating and supporting a forward-deployed U.S. Government civilian
presence is challenging and expensive. REOs depended on private contractors for
life support and personal protective services, and at the time of this audit, there were
nearly four such contractors for every U.S. Government staff member at REO Basra,
Regional Reconstruction Team (RRT) Erbil, and REO Hillah. Embassy Baghdad re­
ported that the Department spent more than $75 million annually to secure, operate,
and maintain REO Hillah; before its closure, REO Kirkuk had a $40 million annual
operation expense.

In May 2009, REO Basra was folded into Provincial Reconstruction Team (PRT)
Basra, and the REO was “mothballed” indeﬁnitely, pending a decision by the Ad­
ministration regarding opening a U.S. Consulate in the city of Basra. At the time of
OIG’s ﬁeldwork, PRT Basra had inadequate housing, ofﬁce space, and other life
support services. However, Embassy Baghdad later noted it was addressing these
shortfalls. In February 2009, REO Kirkuk was closed, and most of its operations
were transferred to RRT Erbil in northern Iraq. The leased ofﬁce space and lodging
at the RRT compound were less than adequate, but the Department was reluctant to
approve relocation or extensive repairs until an Administration decision on U.S. Gov­
ernment presence in northern Iraq. REO Hillah had been a base for ﬁve PRTs, but
by early 2008, supported only PRT Babil. OIG had earlier determined that the costs
and number of personnel employed were OIG had earlier recommended relocating
PRT Babil and closing REO Hillah. In September 2009, the Embassy reported that
relocation of the PRT and closure of the REO were proceeding.

Under an October 2004 agreement, the Iraqi Interim Government transferred to
the U.S. Government the title to a site for the new embassy compound in Baghdad
and future consulate sites in Basra and Mosul, but as of June 2009, no steps had
been taken to plan or budget for future consulates. Consulate security is key and will
require signiﬁcant investment. Furthermore, the facilities at current and former REO
locations are inadequate for consular operations. Therefore, OIG recommended that,
upon receiving policy direction from the Administration, Embassy Baghdad develop
a detailed plan to establish consulates in Iraq. The plan should contain an analysis of
the security situation, life support, and other logistical requirements, including associ­
ated costs and future funding requirements.




24      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Performance Audit of the Triple Canopy
Contract for Personal Protective Services in
Iraq (MERO-IQO-09-03)

Triple Canopy provided personal protective services to ofﬁcials at REO Basra and
to PRT members in southeastern Iraq. Triple Canopy’s personal protection opera­
tion effectively ensured the safety of chief of mission personnel and was commend­
ably restrained in the use of deadly force. However, there were recurring difﬁculties
maintaining required stafﬁng in several critical labor categories. DS special agents did
not review or sign personnel rosters to ensure complete and accurate stafﬁng data or
proper labor costs. There were signiﬁcant problems in the selection of models, ﬁeld­
ing, and maintenance of armored protection vehicles which were ill-suited for the
terrain. Triple Canopy personnel also used armored protection vehicles for administra­
tive tasks and errands causing unnecessary wear and tear. OIG also found DS special
agents at Embassy Baghdad had signiﬁcant problems managing and monitoring Triple
Canopy performance.

OIG recommended DS implement an armored protection vehicle package to meet
the needs of protection missions in geographically challenging terrain, and that DS
provide a sufﬁcient number of standard road vehicles suitable for required administra­
tive, non-protection transportation. Recommendations in a previous report to resolve
similar issues related to staff maintenance and turnover, gaps in staff coverage, per­
sonnel roster review, and inadequate contract monitoring, (Review of Diplomatic Security’s
Management of Personal Protective Services in Iraq, MERO-IQO-09-02, January 2009) were
not duplicated in this report in order to build on OIG’s past work and reduce DS’s
workload.



Interim Report on Role, Stafﬁng, and
Effectiveness of the Regional Embassy Ofﬁce
in Hillah, Iraq (MERO-IQO-09-04)

OIG’s Middle East Regional Ofﬁce issued an interim report on REO Hillah, Babil
Province. REO Hillah mainly served as the headquarters and logistical platform for
ﬁve PRTs operating in Iraq. However, in early 2008, the REO only supported PRT
Babil. Embassy Baghdad calculated an annual security cost of $55 million and annual
life support costs of $20 million. OIG noted that spending more than $75 million an­
nually was an expensive way to support a single PRT. Further, OIG recommended the
Department consider stopping or curtailing all capital improvement projects at REO




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                25
Hillah, relocate PRT Babil and other U.S. Government employees to the nearby U.S.
Army Patrol Base Hillah, curtail or transfer security and support staff to other loca­
tions within Iraq, and decommission and return the Hillah compound property to
the Iraqi Government.



Performance Audit of the Triple Canopy
Contract for Personal Protective Services in
Jerusalem (MERO-IQO-09-05)

Triple Canopy provides personal protection to ofﬁcials under chief of mission
authority in Jerusalem and Tel Aviv. OIG determined that Triple Canopy effectively
ensured the safety of chief of mission personnel in Jerusalem, recruited an experi­
enced pool of security specialists, and conducted satisfactory continuing professional
education. The contractor had reliable inventory controls and adequate physical
security for government-furnished equipment. However, during its ﬁeldwork, OIG
found that the regional security ofﬁcers (RSO) at Consulate General Jerusalem did
not review personnel rosters and could not verify their accuracy or completeness.
The duties of the COR, which were performed by the RSOs, were not fully execut­
ed. Further, contractor invoices (for labor and equipment) were not reviewed by U.S.
Government personnel on-site. Consulate General Jerusalem had some maintenance
issues with 50 armored vehicles used by Triple Canopy for protection missions,
largely due to a lack of mechanics and repair facilities, and exacerbated by the use
of old, high-mileage armored protection vehicles on rough terrain. The consulate
general was taking steps to improve this situation.

OIG recommended DS ensure RSOs at Consulate General Jerusalem review and
verify the accuracy of personnel rosters before submission to Triple Canopy pro­
gram management and DS in the United States. OIG also recommended that DS
better deﬁne COR duties, ensure on-site reviews of contract management and
invoices, and provide additional COR training opportunities. Recommendations to
resolve similar issues were included in the Review of Diplomatic Security’s Management of
Personal Protective Services in Iraq (MERO-IQO-09-02, January 2009).



Performance Audit of the DynCorp Contract
for Personal Protective Services in Iraq
(MERO-IQO-09-06)

DynCorp’s personal protective services for ofﬁcials under chief of mission authority
in northern Iraq were effective in ensuring the safety of chief of mission personnel


26      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
from PRT Erbil, REO and PRT Kirkuk, and later, a RRT in Erbil. DynCorp provid­
ed skilled, experienced personal security specialists and conducted required in-coun­
try training, but had difﬁculty maintaining certain types of staff members. However,
as OIG recommended in an earlier report, DS resumed assessing appropriate deduc­
tions for personnel shortages. OIG found DS special agents did not review or sign
personnel rosters to determine whether the information was accurate and DynCorp
labor costs were proper. In Kirkuk, DynCorp successfully used hand-held radios for
long-range communication by adjusting radio frequencies, and the OIG team high­
lighted this solution to Embassy Baghdad and DS representatives. The team also
recommended acquiring ﬁeld communication expertise, and DS proceeded to hire
two radio experts. The 60-mile distance between the armored vehicle maintenance
facility and RRT Erbil created maintenance challenges.

OIG recommended that DS make certain DynCorp provide personnel in the labor
categories required by its contract, and ensure that its special agents review and verify
the accuracy of DynCorp personnel rosters. OIG also recommended that Embassy
Baghdad ensure appropriate maintenance support in Erbil for armored protection
vehicles.




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                27
28   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
                                              AUDITS



Financial Management 


Management Letter Related to the Audit of
the U.S. Department of State 2008 and 2007
Financial Statements (AUD/FM-09-11)

The independent external auditor issued an unqualiﬁed opinion on the Department’s
2008 and 2007 ﬁnancial statements. During the audit, the independent external audi­
tor identiﬁed internal control weaknesses relating to the fund balance with Treasury,
accounts receivable and payable, payroll accruals, payroll documentation, heritage as­
sets, deferred maintenance, non-personnel expenses, prompt payments, controls over
cash and cash receipts at posts, personal property, managerial cost accounting, real
property, grants, revenue, information security, eliminations, journal vouchers, agency
ﬁnancial report, bilateral agreements, the supplemental Foreign Service National pen­
sion plan for Hong Kong, and the Foreign Service Retirement and Disability Fund’s
actuarial liability and beneﬁt payments. The auditor recommended that the Depart­
ment take appropriate action to address these weaknesses.



Independent Auditor’s Report on the
International Boundary and Water
Commission, United States and Mexico, U.S.
Section, 2008 and 2007 Financial Statements
(AUD/FM-09-17)

The independent external auditor issued an unqualiﬁed opinion on the International
Boundary and Water Commission, United States and Mexico, U.S. Section’s ﬁnancial
statements as of September 30, 2008 and 2007, and did not identify any material
weaknesses related to internal control or material instances of noncompliance.




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                29
Management Letter Related to the Audit
of the International Boundary and Water
Commission, United States and Mexico, U.S.
Section, 2008 and 2007 Financial Statements
(AUD/FM-09-18)

The independent external auditor issued an unqualiﬁed opinion on the International
Boundary and Water Commission’s 2008 and 2007 ﬁnancial statements. During
the audit, the independent external auditor identiﬁed concerns relating to property,
plant, and equipment; the internal audit function; accounts payable; other liabilities;
the Management’s Discussion and Analysis section of the ﬁnancial statements; and
deferred maintenance. The auditor recommended that the Commission take appro­
priate action to address these weaknesses.



Independent Auditor’s Report on the Foreign
Service Retirement and Disability Fund,
2008, 2007, and 2006 Financial Statements
(AUD/FM-09-19)

The independent external auditor issued an unqualiﬁed opinion on the Foreign
Service Retirement and Disability Fund’s ﬁnancial statements as of September 30,
2008, 2007, and 2006, and did not identify any material weaknesses related to internal
control or reportable instances of noncompliance.



Management Letter Related to the Audit of
the Foreign Service Retirement and Disability
Fund, 2008, 2007, and 2006 Financial
Statements (AUD/FM-09-20)

During the audit of the Foreign Service Retirement and Disability Fund’s ﬁnancial
statements, the independent external auditor identiﬁed concerns relating to overpay­
ments to annuitants, missing documentation within annuitant ﬁles, and the actuarial
report. The auditor recommended that the Department take appropriate action to
address these weaknesses.




30      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Property and Procurement


Joint Audit of Blackwater Contract and Task
Orders for Worldwide Personal Protective
Services in Iraq (AUD/IQO-09-16)

The Department’s OIG and the Special Inspector General for Iraq Reconstruction
performed a joint audit of the Department’s contracts and task orders with Black­
water Security Consulting for Iraq. The total estimated costs for these contracts and
task orders were over $1 billion. The contracts were funded primarily with Depart­
ment Diplomatic and Consular Programs funds and about $76 million of Iraq Relief
and Reconstruction Funds.

OIG found that the contract and two of the three task orders were awarded to
Blackwater through standard competitive processes and that the third task order,
which had been awarded noncompetitively, was justiﬁed. However, improvements
were needed by the Department in administering the contract and providing more
stringent oversight of Blackwater’s cost and performance in Iraq as follows:

     •    	 epartment ofﬁcials in Iraq did not establish or perform measures to
          D
          conﬁrm the accuracy of labor costs used as the basis for contract billing.
          Monthly invoices from the contractor were paid without adequate review of
          support documentation.

     • 	 Although full manning of protective details is important to the safety of the
         principal being protected, as well as for the members of the protective detail,
         the Department did not assess penalties for noncompliance with contract
         stafﬁng requirements. OIG estimated deductions totaling $55 million appli­
         cable to manpower shortages during 2006 and 2007.

     • 	 Although the Department was doing a commendable job in providing over­
         sight of weapons and vehicles provided to Blackwater, its oversight of all
         other government-furnished property was inadequate, and contractor lists
         were incomplete, inaccurate, and therefore unreliable. In some instances,
         Blackwater property was erroneously identiﬁed as government property.

     • 	 Blackwater’s travel costs were not adequately reviewed. Ineligible travel costs
         of $127,364 were paid for airfare in excess of coach fare. During the audit,
         the contracting ofﬁcer recovered $56,457 of the total amount ineligible un­
         der the contract.

     •    	 ontract oversight ﬁles required by the COR were not easily accessible and
          C
          may not be complete in Iraq and at headquarters.


Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                31
OIG recommended the Department designate a full-time COR on-site in Iraq to
verify labor charging data entered there and to monitor Blackwater’s control and
accounting for government-furnished property; determine whether deductions to
the contract price for inadequate stafﬁng are needed and, if so, the amount of these
deductions; and recover the remaining excess travel costs of $70,907 billed by Black­
water.



Audit of Contract and Procurement Process
for Selected Projects at U.S. Embassy
Jakarta (AUD/IP-09-22)

Embassy Jakarta did not fully comply with applicable contract and procurement laws,
regulations, and Department policies. Speciﬁcally, the Embassy did not always obtain
appropriate approvals for construction projects, and it used incorrect appropria­
tions amounting to approximately $397,000 to fund certain projects. In addition, the
Embassy did not maintain adequate documentation for OIG to determine whether
the costs charged to a tenant agency for alterations to ofﬁce space were supported
and necessary. Further, Embassy personnel did not prepare adequate independent
government estimates, approved changes to contract speciﬁcations without obtaining
contract modiﬁcations, and did not always document the reasons for the changes or
for their monitoring and inspections of contractor performance. Finally, Embassy
personnel did not always comply with regulations and policies relating to blanket
purchase agreements.

As a result, projects constructed at the Embassy without OBO’s prior approvals may
not meet life and safety requirements and be safe for the occupants. In addition,
OBO’s funding may have been augmented, and the Department’s records may be in­
accurate. Furthermore, the Embassy’s actions toward the tenant agency may adverse­
ly affect their relationship in the future, and there is no assurance that the Embassy
received what it contracted for at a reasonable cost.

OIG recommended the Embassy improve its management oversight of the procure­
ment process and that it work with OBO to inspect the construction projects, cor­
rect funding for projects for which incorrect funds were used, and determine wheth­
er the alterations associated with the tenant agency were supported and appropriate.




 32      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Audit of the Timeliness
of Department Payments                                                            Best Practice
Subject to the Prompt
Payment Act (AUD/IP-09-24)                                  Audit of the Timeliness of Department Payments
                                                            Subject to the Prompt Payment Act
                                                            (AUD/IP-09-24)
In assessing the Department’s compliance                    Best Practice: Improved Oversight of the Pay-
with the Prompt Payment Act (PPA), OIG                      ment Process by the Bureau of Consular Affairs
found the Department’s interest penalties                   Issue: The Department’s interest penalties
increased dramatically in FY 2008 to $5.4                   increased dramatically in FY 2008 to $5.4 mil-
million, from $405,000 paid in FY 2006,                     lion, from $405,000 paid in FY 2006, because of
because of increasingly late payments paid                  increasingly late payments paid to its vendors.
to its vendors. Through its random sample,                  The Bureau of Consular Affairs incurred a large
                                                            portion of those penalties— $1.1 million in the
OIG found that 56 percent of the Depart­
                                                            ﬁrst 10 months of FY 2008.
ment’s domestic FY 2008 payments subject
to PPA were not made timely. The interest                   Response: The Bureau of Consular Affairs made
penalties of $5.4 million paid in FY 2008                   signiﬁcant improvements in the timeliness of
as a result of the untimely payments could                  payments by providing greater oversight of the
                                                            payment process. These improvements include:
have been used for other Department
programs. Almost 80 percent of the inter­                   • Establishing an email inbox for CORs and
                                                            vendors to send their questions and assigning
est penalties were assessed against four of
                                                            two employees to monitor the email inbox and
the Department’s bureaus, and 10 vendors                    respond to questions within 48 hours.
received over half of the interest penalties
                                                            • Establishing an email notiﬁcation system to
paid.                                                       email individuals who are late in completing tasks
                                                            needed to review and approve an invoice. Sub-
Interest penalties increased primarily                      sequent emails (second and third) include more
because of delays in processing invoices                    individuals at higher levels in the bureau. The
caused by the change to a new account­                      fourth email is directed to the executive director.
ing system in May 2007. The Department                      • Attaching the Award Status Report to each
resolved some of the problems that oc­                      invoice sent to CORs. This report provides
curred during implementation of the                         information that is needed by CORs to process
system, but it has not addressed the delays                 payments without their having to take time to
resulting from the more detailed review and                 obtain this information from the Global Financial
                                                            Management System.
approval process established at the time
of implementation. OIG recommended                          • Encouraging CORs to make partial payments
                                                            when there were problems with selected line
that the Bureau of Resource Management                      items on the invoices, thus reducing late payment
resolve outstanding problems with the new                   charges.
accounting system, implement a process or                   Result: These improvements led to a dramatic
system to track all invoices from receipt to                reduction in interest penalties to $13,000 in the
payment, make the late payments reports                     ﬁrst 4 months of FY 2009 compared to $1.1 mil-
more timely, and add performance metrics                    lion in the ﬁrst 10 months of FY 2008.
to the reports.




  Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
  Ofﬁce                                                                                                   33
Information Technology


Audit of Property Accountability, Inventory
Controls, and Encryption of Laptop
Computers at Selected Department of State
Bureaus in the Washington, DC, Metropolitan
Area (AUD/SI-09-15)

The Department did not have an accurate accounting for and had not encrypted
all of its classiﬁed and unclassiﬁed laptop computers in the Washington, DC, area
for the four bureaus included in OIG’s audit. Three of the four bureaus were not
able to fully account for some of the laptop computers in the sample. Contrary to
the Department’s ofﬁcial inventory records, OIG was unable to inspect 119 laptop
computers in its revised sample size of 334 because they were missing (27); were not
physically located in the Washington, DC, area or were otherwise unable to be physi­
cally inspected (35); or had been disposed of (57). Of the 215 that were physically
inspected, 172 were not encrypted and 43 were encrypted.

For the 27 missing laptop computers, Department ofﬁcials could not determine the
disposition of 23 of them. Ofﬁcials said that three of the remaining four laptop
computers had been returned to the vendor and that one had been destroyed in a
ﬁre, but they could not provide proper asset tracking documentation to support
these events. As a result, OIG could not verify the locations of those four items, and
none had been properly removed from the ofﬁcial inventory system.

By the end of OIG’s ﬁeldwork, the bureaus had taken actions to locate and some
had encrypted their laptop computers. However, additional measures were needed to
address inventory controls, encryption policies and procedures, and security aware­
ness training tracking, and OIG made recommendations to address these deﬁcien­
cies.




34     Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Contracts and Grants


Independent Accountants’ Report on the
Application of Agreed-Upon Procedures on
Indirect Cost Rates Proposed by the National
Committee on United States-China Relations,
Inc. (AUD/CG-09-23)

L.F. Harris & Associates, CPA, P.A., performed agreed-upon procedures on indirect
cost rates under the provisions of applicable Ofﬁce of Management and Budget cir­
culars. The independent accountants determined that the accounting system of the
National Committee on United States-China Relations, Inc. (NCUSCR) was adequate
for accumulating and reporting NCUSCR’s indirect costs under applicable provisions
of the circulars. However, the accountants identiﬁed errors and inconsistencies in the
rate calculations for the ﬁscal years ended December 31, 2007; September 30, 2006;
September 30, 2004; and September 30, 2003. The accountants made appropriate
adjustments and recommended that the Bureau of Educational and Cultural Affairs
accept and ﬁnalize the recomputed indirect cost rates for FYs 2007, 2006, 2004, and
2003.




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                35
36   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
                                        INSPECTIONS



Domestic Operations


Inspection of the Executive Ofﬁce of the
Bureau of Diplomatic Security (ISP-I-09-16)

Reﬂecting the enhanced threats facing the United States, the Bureau of Diplomatic
Security was in a period of unprecedented expansion, directly impacting the bureau’s
Executive Directorate (DS/EX). The overall DS budget, which DS/EX manages,
had grown from $350 million in FY 1995 to $2.6 billion in FY 2009. In FY 2009,
DS/EX will process 426 new personnel and is scheduled to absorb an additional 484
in FY 2010.

DS/EX was bearing the brunt of this expansion and was coping despite staff
shortfalls, resource constraints, and its outdated organizational structure. DS/EX
was providing an adequate level of support overall; however, it will need signiﬁcant
increases in support staff and resources to keep up with the demands facing DS in
the next few years.

DS/EX needed to revamp its organizational structure to better reﬂect new, expanded
demands on the directorate, particularly in human resources, strengthening institu­
tional support for the executive director, and realigning the Policy and Planning Divi­
sion to better conform to DS/EX priorities.

The Ofﬁce of the Chief Financial Ofﬁcer (DS/EX/CFO) was managing well ap­
propriations totaling $2.6 billion and was adequately supporting the Bureau and its
external customers despite understafﬁng. DS/EX needed to strengthen the policy-
budget interaction.

DS/EX/CFO had challenges in poor inventory management and insufﬁcient soft­
ware licenses. The systems development process lacked sufﬁcient control gates to
document and approve all stages. DS/EX/CFO also had major challenges with the
information technology consolidation effort with the Bureau of Information Re­
source Management, with signiﬁcant unresolved questions to be addressed.

The Bureau’s management and oversight of $200 million of nonexpendable property
inventory needed strengthening to correct a serious deﬁciency. Poor record keeping
resulted in writing off a shortage of $1.7 million of administrative property. In ad­
dition, outdated and ineffective inventory systems had resulted in the bureau writing

Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                37
off shortages of program property in excess of $1 million, without any research on
possible causes for the loss.

The DS Records Management program, which handles highly sensitive Department
records, needed improvement. The program needed a full-time records management
coordinator, a trained network of bureau contacts, and clariﬁcation of records man­
agement requirements.



Inspection of Bureau of Consular Affairs,
Passport Services (ISP-I-09-34)

The Bureau of Consular Affairs (CA) traditionally gave priority in systems develop­
ment, fraud prevention, and management oversight to its overseas consular opera­
tion, but a series of crises in Passport Services (CA/PPT) in recent years intensiﬁed
CA’s focus on its large domestic operation. CA/PPT put strategic planning on the
back burner while it responded to surges in its workload, unauthorized intrusions
into passport records, adverse publicity about antifraud weaknesses, and its own
sequential internal reorganizations. The lack of long-term planning had repercus­
sions for the development of budget and stafﬁng needs, the setting of priorities for
technological development, and the cohesiveness of its overall operations.

Dramatic changes in passport demand and workload in the past 3 years challenged
CA/PPT to adjust stafﬁng levels to meet current and future demand. CA/PPT
demonstrated ﬂexibility in adjusting staff to an increased workload during a period
of record growth in 2007, but it was slow to reduce staff with the 2008-09 decrease
in workload.

The new deputy assistant secretary had a vision for CA/PPT, but execution of her
plans was slow. Despite several attempts at reorganizing staff and realigning respon­
sibilities in recent years, CA/PPT was still not appropriately organized or staffed to
maximize its support of a growing number of ﬁeld ofﬁces and its many complex
policy issues.

CA/PPT was rightly concerned about the vulnerabilities to fraud inherent in the
passport application acceptance program at acceptance facilities countrywide and the
quality of the source documentation submitted in support of passport applications.
In response, it was setting up processes to increase oversight of the acceptance facil­
ity program and to make more state and vital records databases available to passport
adjudicators.

Communication within CA/PPT needed to be institutionalized: headquarters needed
to solicit broad input from the ﬁeld ofﬁces before implementing new procedures;
ﬁeld ofﬁces needed a reliable mechanism to share best practices with each other and

38      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
with headquarters; and headquarters needed to provide better feedback on pending
technology and facilities upgrades and human resources issues to the ﬁeld.

While CA/PPT management insisted that passport integrity and fraud prevention
were coequal in importance with production goals, many employees in the ﬁeld be­
lieved fraud prevention was secondary. Established work rules and policies supported
this impression. CA/PPT needed to strike and maintain a consistent balance between
the quality of its product and the production quotas, and provide adequate staff and
facilities to do both. Fraud prevention efforts in the passport system were uneven
in quality and application. CA/PPT needed to improve access to fraud tools such as
databases and training.

Centralization of passport processing and production had been successful and cost
efﬁcient, enabling agencies to focus more on adjudication and customer service. The
trend was to expand the agency network and improve their storefront operations,
antifraud efforts, outreach, and oversight of acceptance facilities. A realignment of
regional responsibilities would facilitate these efforts.

Although there had been vastly increased opportunities for training since the 2007­
08 hiring of hundreds of new passport adjudicators, training had not been institu­
tionalized system-wide, and there was a dearth of much-needed training targeting
supervisory personnel or staff recruited from outside the passport system.

CA/PPT had traditionally promoted its top adjudicators into management posi­
tions in the ﬁeld without evaluating their management skills or providing appropriate
management training. As a result, leadership at the passport agencies and centers was
uneven, with morale, motivation, and work quality affected in kind.

Although CA’s Ofﬁce of the Executive Director generally provided satisfactory ser­
vices to CA/PPT, the human resources division failed to provide reliable, timely, and
appropriate guidance to the ﬁeld ofﬁces on vital issues including hiring, discipline,
and termination, which affected productivity and morale.




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                39
                                          BEST PRACTICES

     Inspection of Bureau of Consular Affairs, Passport Services       (ISP-I-09-34)

     Best Practice: Oversight of new acceptance facilities’ passport application acceptance.

     Issue: Eighty-five percent of all passport applications are made at an acceptance facility.
     Acceptance agents at each facility are required to perform specific steps prior to adjudica-
     tion by passport specialists in order to ensure passport applications contain accurate,
     legitimate information. Acceptance agents are neither Department employees nor are
     they experts in passport law or the identification of fraudulent documents. Training for new
     acceptance agents is minimal, and once certified as acceptance agents, oversight of their
     individual activity is negligible.

     Response: Customer service managers in Los Angeles and Philadelphia require new ac-
     ceptance facilities to send passport applications directly to them instead of to the lockbox
     for processing during a probationary period. This allows the supervisory agency to review
     the work of the acceptance facility’s agents to ensure that they are performing accord-
     ing to established guidelines. Once the supervisory passport agency is satisfied that the
     acceptance facility is comfortable with the process, the customer service manager directs
     the facility to begin routinely forwarding the applications to the lockbox.

     Result: New acceptance agents can get quick, personalized feedback on their perfor-
     mance and establish a working relationship with their supervisory passport agency im-
     mediately upon beginning to perform the acceptance function. Any questions or problems
     can be addressed early on in the process, and incorrect work habits can be addressed.
     Even an established acceptance facility can be required to follow this procedure if it
     changes personnel or its agents experience quality issues and need closer attention.



     Best Practice: Standard Operating Procedures and Rotation Schedules in Fraud Preven-
     tion Units

     Issue: Passport adjudicators rotate into the fraud units for a period of between 1 and 6
     months. Each agency and center has at least one contract employee in the fraud unit.
     The value of the rotation to the adjudicator and the value of the work performed by both
     adjudicators and contractors depend at least in part on the degree of organization in the
     fraud prevention unit.

     Response: In the two centers, the fraud prevention managers have developed detailed
     standard operation procedures for both the rotating adjudicators and the contractors
     describing the tasks to be performed and how they should be accomplished. For the adju-
     dicators, the schedules detail the skills to be learned and the tasks they should perform at
     each stage of the rotation.

     Result: Rotational adjudicators benefit from knowing what they are supposed to do,
     when and how they are to accomplish each task and at what stage of the rotation. Their
     supervisors can evaluate their progress. The contractor role is also more effective when
     well defined.




40   Office of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
         Best Practice: Moving Applications and Supporting Documents Securely

         Issue: Many applications have volumes of supporting documents attached to them, includ-
         ing old passport books, secondary identity documents, and even family and school photos
         to document residence in derivative citizenship cases. Agencies use a variety of methods to
         keep documents together and ensure their eventual return to the applicants, but inevitably
         there is risk of loss during processing.

         Response: The Boston passport agency puts all the applications and supporting documents
         submitted by the walk-in public into a thin, transparent document protector. The cases move
         through the data entry, adjudication, and printing processes in their document protectors
         and are organized for return at the will call window with the data page of the passport open.
         When the applicant picks up the passport, it is easy for both the passport employee and
         the applicant to review the passport data page for accuracy without opening the traditional
         blue legal-size envelope currently used at will call. The entire packet including the document
         protector is returned to the applicant.

         Result: Stapling and staple removal, both time-consuming processes, are minimal. Docu-
         ment loss and damage are reduced. Review of the finished document is quick and easy.




         Best Practice: Annotation of Citizenship Law and Supporting Documentation

         Issue: A percentage of applications are associated with complex claims to U.S. citizenship.
         It is not possible to annotate such claims in the limited space provided on the passport ap-
         plication because they are often supported by several pieces of evidentiary documentation.
         Agencies use a variety of methods to record the documents. Both the legibility and quality of
         case development are important.

         Response: One agency documents the law and section associated with the citizenship
         claim in the section of the application reserved for evidence. Each piece of documentary
         evidence submitted is recorded on a second sheet of paper along with its disposition. The
         adjudicator date stamps and signs the paper, which becomes part of the application file.

         Result: Audits of these cases are easy to conduct because the case development is well
         documented. If and when the applicant applies again, it will be easy for a passport employee
         to review the previous application for accuracy.



         Best Practice: Enhanced Productivity

         Issue: Productivity can vary depending on workload distribution, backlogs in certain catego-
         ries, and increased demands for urgent passport issuance.

         Response: During periods of high demand or reduced staffing, the San Francisco passport
         agency has taken a unique approach to ensure their productivity level does not slip. Each
         evening, the assistant regional director determines what type of application is developing the
         largest backlog and sends a shotgun email to the adjudicators so that everyone knows the
         case type that will be given priority the following morning before the counter opens for inter-
         views. The first hour of the workday all adjudicators, and often even supervisors, process
         applications from that category (i.e., expedites, routine lockbox, suspense cases) before the
         normal workday with its interruptions and distractions begins.

         Result: The agency has consistently high productivity and keeps its backlogs minimal. The
         staff is universally proud of the exercise and refers to it as the “blitz hour.”




Office of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009        41
Management Review of the Ofﬁce of
the Historian Bureau of Public Affairs
(ISP-I-09-43)

The Ofﬁce of the Historian (HO) is responsible by law for the publication of a
thorough, accurate, and reliable account of major U.S. foreign policy decisions within
30 years of the events recorded. This is the Foreign Relations of the United States
(FRUS) series. The 30-year deadline has rarely been met. HO’s inﬂuential advisory
body, the Historical Advisory Committee, feared that mismanagement of the hu­
man resources made available for the FRUS and the effect of this on morale within
HO—also historically poor—threatened further delay, possibly damaging the thor­
oughness and accuracy that give the FRUS its unparalleled prestige. OIG found these
fears to be justiﬁed.

There was a built-in tension between HO’s FRUS-related statutory obligations and
the resources made available to meet them, just as there was between the timeliness
and the quality of the FRUS itself. Even with an increase in staff and in budget, HO
was no closer to meeting these obligations than in the past. The foreign affairs world
and the players in it were continuing to grow in number and complexity, outpacing
efforts to have FRUS keep up. There was a need for more structured thinking about
how FRUS could meet its obligations and expectations within realistic funding levels.
This strategic thinking and planning should be conducted jointly with HO’s advisory
body, the Historical Advisory Committee.

Oversight of HO by the Bureau of Public Affairs had not been regular or helpful.
OIG believed that HO should remain in the Bureau of Public Affairs, but that the
Bureau should provide a more structured mechanism for closer supervision of HO.
HO had a large number of contractors—12 of its 49 positions. This meant increased
costs: OIG estimated that each contractor cost the U.S. Government about $12,000
more per year than would a direct hire employee. It also meant increased instability in
an ofﬁce requiring a high degree of education, training, and experience to carry out
its responsibilities. HO needed an administrative ofﬁcer as well as additional direct-
hire positions for historians. These would help the FRUS by allowing more time to
be spent on research and compilation and by providing a more stable workforce.



Review of Locally Employed Staff
Compensation Issues (ISP-I-09-44)

Based on a survey put out by OIG, the United States has fallen behind in providing
a competitive compensation package for locally employed (LE) staff that is com­
mensurate with their experience, technical skills, and responsibilities. Discrepancies
occurred when the Compensation Division in the Ofﬁce of Overseas Employment

42      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
determined annual LE staff salary increases on the basis of labor market data, while
the Bureau of Resource Management determined the level of funding for salary
increases using inﬂation data.

The Department used the same data to set pay scales for the complete range of LE
positions, from unskilled blue collar workers to highly skilled and trained profession­
al positions. There are a number of arguments that separate data and separate scales
should be established for certain types of employees. The Department did not have
central records of the total LE staff compensation costs for each post and whether
the post was ahead of or behind prevailing practice. While LE staff attrition had
been a concern, the inability of overseas missions to recruit new, qualiﬁed staff may
be a greater problem.



Inspection of the Bureau of African Affairs
(ISP-I-09-63)

The Bureau of African Affairs (AF) was performing well in light of having to man­
age the constant, exhausting crises that characterize much of its work. The welcome
management style of the acting Assistant Secretary and his willingness to encour­
age discussion, indeed dissent, helped temper the pressures of work and transition.
The Executive Ofﬁce’s service orientation got high marks from bureau staff. Some
country directorates were exceptionally well managed, while others suffered from
poor communication and staff development. The three regional functional director­
ates should be restructured to reﬂect bureau priorities. Bureau morale was on the
upswing.

Although the continent’s promises and challenges were still attracting dedicated tal­
ent, the luster of service in the Bureau had faded over the past decade. The under­
current of dissatisfaction with the uneven quality of leadership had affected recruit­
ment to key positions in some cases and retention in others. Stafﬁng in overseas
posts was problematic and locally employed staff compensation was falling behind
cost of living and comparators’ salaries, leading to attrition and additional cost to
replace well-trained and competent senior staff.

OIG recommended AF hire enough direct-hire contract specialists to provide
oversight of its security program contracts. If the Bureau cannot provide the proper
oversight of the peace support operations and security programs it runs, then the
day-to-day implementation of peace support operations, capacity building, programs,
events, and activities should become the responsibility of the U.S. Africa Command
(AFRICOM), in keeping with what is already the norm in other geographic bureaus.

Notwithstanding the 10 years since the U.S. Information Agency was merged into
the Department and its area ofﬁce functions folded into the regional bureaus, the
Bureau of African Affairs public diplomacy and public affairs ofﬁce was neither inte­
grated into the Bureau nor performing satisfactorily.

Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                43
Interagency Evaluation of the Section 1206
Global Train and Equip Program (ISP-I-09-69)

Responding to a request from the Director of the Joint Staff and the Principal Un­
der Secretary of Defense (Policy), the Ofﬁces of Inspectors General for State and
Defense conducted a joint evaluation of the Section 1206 Global Train and Equip
Program, an initiative ﬁrst authorized by Section 1206 of the National Defense Au­
thorization Act for Fiscal Year 2006.

The team found that the program, in the countries the team visited, had succeeded
in building the capacities of foreign militaries to combat terrorism or to participate
with the United States in operations in which the United States is a participant. The
program was thus succeeding in fulﬁlling the purposes of Section 1206. The pro­
gram’s structure included processes to ensure that the program would be conducted
in compliance with all applicable laws.

However, the team found opportunities for management to improve the effective­
ness and efﬁciency of the processes for project selection, program execution, and
project implementation. The team’s overseas visits disclosed the following types of
execution problems: obligation of funds; the Defense Security Cooperation Agency’s
procurement and shipping processes; delays in providing the approved training and
equipment; project status and tracking issues; and other inefﬁciencies. Because the
program was designed to respond to “emergent threats and opportunities,” these
problems slowed the achievement of the program’s goals.

The report made nine recommendations that affect the following areas: the proposal
submission template; Department of Defense directives for program policies and
instructions; shipment priorities; management review processes; military-to-military
training objectives; security assistance ofﬁcer training; munitions safety training; and
performance measures. During the course of the review, the Departments of De­
fense and State began management actions to develop and reﬁne the Section 1206
program further.




44      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Overseas Missions

    Bureau of African Affairs

Inspection of Embassy Brazzaville, Republic
of the Congo (ISP-I-09-32A)

Embassy Brazzaville had successfully completed the major part of its move into a
functional and attractive new embassy compound, although it was still addressing
several uncompleted elements. Information systems were not functioning adequately
in the new location and required signiﬁcant attention to adequately serve the needs
of all embassy elements. The Embassy had not yet made the Information Resource
Center in the new location fully functional nor brought Information Resource Center
activities currently carried out elsewhere into the new purpose-built Information
Resource Center.

The Embassy was completing a several-year process of returning to normal stafﬁng
and physical facilities following the disruption of the civil war and the destruction
of the previous chancery. The Embassy’s consular section, which began operation
in January 2009, was off to a good start. Its enthusiastic but inexperienced staff was
taking good advantage of expansive training opportunities. Strong regional support
and comfortable work space further contributed to its positive energy, developing
and strengthening consular performance.

The Embassy was using the U.S.-owned facility at Villa Washington in an important
role of outreach to the country’s youth. Villa Washington could also become an ex­
cellent recreation facility for the Embassy community. The two potential uses could
be compatible. The Embassy needed to decide on the future use of this property and
bring it into conformity with security standards for such use.

Despite short-stafﬁng and a dearth of reporting ofﬁcers, Embassy Brazzaville suc­
ceeded in providing high-quality analytical reporting on all issues of signiﬁcance.



Inspection of Embassy Kinshasa, Democratic
Republic of the Congo (ISP-I-09-36A)

Embassy Kinshasa had provided strong policy leadership and effective mobiliza­
tion and coordination of multidimensional U.S. efforts to bring, peace, stability, and
humanitarian assistance to the eastern regions of the Democratic Republic of the

Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                45
Congo and the broader Great Lakes region of Africa. Through the U.S. presence
in the city of Goma in the conﬂictive eastern Congo, Embassy Kinshasa was suc­
cessfully advancing U.S. foreign policy interests through political and humanitarian
representation, reporting, and delivery of humanitarian assistance.

The Embassy had carried out an impressive effort to establish and provide adminis­
trative and security support for the U.S. presence in Goma, a presence that is likely to
be necessary for the next 3 to 5 years. There was an important need to regularize the
status of the Goma location as a small, medium-term presence in order to assure the
security and proper functioning of the U.S. personnel there.

The Embassy was working and functioning in a very difﬁcult security and opera­
tional environment in an obsolete and inadequate physical facility. The planned
new embassy compound (NEC) project was postponed from FY 2008 to FY 2014,
largely because negotiations to purchase suitable property were unsuccessful. To
avoid further postponements, it was imperative that a NEC site be acquired as soon
as possible. When the NEC was scheduled for FY 2008, existing plans for chancery
repair and renovation projects were suspended. With the NEC project postponed, it
was essential to reinstate those projects to enhance safety and improve operational
conditions in the aging chancery.

International Cooperative Administrative Support Services (ICASS) customers were
not satisﬁed with the quality of many services, and planned increases in program
staff will bring further demands for administrative support. Additional ICASS re­
sources may be required to meet this increased demand. As U.S. engagement with the
Democratic Republic of the Congo grew and U.S. development assistance resumed,
the size of the U.S. Embassy in Kinshasa increased greatly and was scheduled for
further growth in the next several years. Future growth of embassy program staff
needed to be adjusted to the Embassy’s ability to provide security and administrative
services.

Nonimmigrant visa interviews scheduled off-site appeared to exceed the number
of machine-readable visa fees collected off-site by about 10 percent over the past 9
months. The discrepancy needed to be investigated and procedures changed to pre­
vent recurrence of the problem.



Inspection of Embassy Praia, Cape Verde
(ISP-I-09-41A)

Embassy Praia was working out of an inadequate ofﬁce building with no room for
staff expansion. Notwithstanding its limitations, the Embassy was functioning very
well by focusing on a narrow set of goals and by closely integrating its small Ameri-

46      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
can staff and competent LE staff into its work. The Embassy was making progress
in its ﬁrst goal to increase cooperation with the Cape Verdean Government to reduce
illegal trafﬁcking of narcotics and people. The Embassy successfully accomplished
its overriding goal of safeguarding American citizens, as well as providing other con­
sular services to large American-Cape Verdean communities both in Cape Verde and
the United States.

The Embassy’s Ambassador and deputy chief of mission were providing strong, fo­
cused, and caring leadership to the mission. The Embassy needed to weigh carefully
any proposals to increase staff against its limitations in space, funding, and manage­
ment capacity. Some staff were stretched too thin, particularly the combined deputy
chief of mission/management ofﬁcer position. The OIG team recommended the
Embassy make a strong argument for the addition of a management ofﬁcer position.



Inspection of the Ofﬁce of the U.S. Special
Envoy for Sudan (S/USSES) (ISP-I-09-65)

In the United States Special Envoy to Sudan’s ﬁrst 60 days, there was little doubt that
he was engaged in a single-minded pursuit of international action to heal the con­
sequences of what then Secretary of State Powell characterized in 2004 as genocide
in Darfur, to help implement the agreement that ended the North-South War, and
to move Sudan in the direction of stability and respect for basic human rights. At
the time of the inspection, the Special Envoy had already logged thousands of miles
from China to Libya, and from Nairobi to Khartoum. It was far too early to say
whether energetic diplomacy could sway the Sudanese Government.

In previous years, notwithstanding the enormous efforts the United States made to
help in Sudan, there was questionable cooperation between special envoys and AF
assistant secretaries. The new Special Envoy was well-briefed on the pitfalls of his
predecessors and determined to coordinate carefully with the new Assistant Secretary
for Africa. Each considered the other a friend, and the Ofﬁce of the United States
Special Envoy for Sudan (S/USSES) staff described the relationship as comfortable.
Irrespective of whatever differences may have cropped up between the Bureau and
envoys in the past, personnel in both ofﬁces stressed that working level relationships
have always been strong.

In a departure from previous organizational responsibilities, the Sudan desk function
was under the Special Envoy. He had assumed responsibility for backstopping the
U.S. mission in Sudan, be it Embassy Khartoum, Consulate General Juba, or tempo­
rary duty assignments to outposts such as Al Fashir in Darfur. U.S. ﬁeld personnel



Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                47
were conducting on-the-ground, day-to-day diplomacy with all levels of the Sudanese
Government. They served in incredibly difﬁcult, dangerous places, playing a critical,
unsung role in the search for peace in Sudan.

The Executive Ofﬁce of the Bureau of African Affairs will continue providing man­
agement services for S/USSES. This is a sensible arrangement and will help preserve
linkages between the Special Envoy’s ofﬁce and the regional bureau. S/USSES and
Embassy Khartoum personnel spoke gratefully of the management services the
Bureau provided.



     Bureau of European and Eurasian Affairs

Inspection of Embassy Bern, Switzerland
(ISP-I-09-31A)

Reporting by the lean political-economic section had been good, especially on the
Swiss reaction to the global ﬁnancial crisis, but the section could have done more
reporting and contact work. The political-economic section devoted a large amount
of its limited time and resources to the support of U.S. participation in the World
Economic Forum.

Support for the U.S. Administration and Congressional ofﬁcials who attended the
World Economic Forum, a large private sector gathering of global leaders from gov­
ernment, business, media and nongovernmental organizations each January, could
have been provided more efﬁciently by the United States Mission to United Nations
and International Organizations in Geneva.

The small public affairs section had worked hard and achieved measures of success
in cultural and media outreach and in the support of the Fulbright exchange pro­
gram. It could improve the Embassy’s Internet presence and the perception of its
responsiveness to other sections and agencies.

Consular operations in Bern featured a busy American citizen services workload and
visa waiting times well within CA guidelines. The renovated facility it occupied had
serious ﬂaws, many of which were inherent in the design. The new section chief was
making good strides in complying with CA internal controls policies, but needed as­
sistance from the management section to complete them.




48      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Embassy Bern’s management team, despite its small size, provided a consistently
high level of customer service by focusing on continual improvement, seeking inno­
vative ways to reduce costs, improving quality, and increasing effective service deliv­
ery. However, additional attention to management controls was needed.




Inspection of Embassy London, United
Kingdom (ISP-I-09-37A)

At the time of the inspection, consular sections in the United Kingdom were han­
dling the most diverse caseload in the world, and demand was the highest in Europe.
Antifraud cooperation among sections and agencies was critical to ensuring quality
adjudication of visa and passport applications. Balancing workload demand with the
development activities of entry-level ofﬁcers will continue to challenge post manage­
ment. Political and economic reporting was uniformly excellent. After recent terrorist
attacks in the United Kingdom, the political section formed an interagency working
group to study radicalization among disaffected young Muslims and to cooperate
with the U.K. Government on ways to counter this trend. The economic section’s
expanded reporting on the burgeoning global ﬁnancial crisis kept Washington con­
sumers well briefed on London’s key role as a major international ﬁnancial center in
helping control the situation.

Ofﬁcers throughout the Embassy, including the political and economic sections,
were spending up to 50 percent of their time supporting the 18,000 ofﬁcial visitors
who travel to London annually. The Embassy was looking at ways to reduce the visi­
tor load without impairing U.S.-U.K. relations. The United States has a strong inter­
est in political and economic stability in Northern Ireland, and the Belfast Consulate
General was playing an important role in fostering successful peace efforts through
the promotion of private enterprise, trade, and investment.

London is an important media center for Europe, the Middle East, and Asia. The
U.S. Government gets tremendous value from public affairs and media outreach cen­
ter operations. Without additional resources, however, public diplomacy will not be
able to take advantage of opportunities to improve America’s proﬁle in the United
Kingdom and with Muslim audiences abroad.

Embassy London’s management team was providing a reasonable level of customer
service while contending with a stafﬁng growth rate that surpassed its ability to meet
demands. Without concomitant growth in ICASS staff, the management section
would not be able to continue to provide minimum service levels.




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                49
                                 BEST PRACTICES
     Inspection of Embassy London, United Kingdom (ISP-I-09-37A)

     Best Practice: Voice Over Internet Protocol (VOIP) - Plus

     Issue: Reducing local telephone usage charges.

     Response: Reconfiguring the Embassy’s telephone switch to work
     with a commercial VOIP Internet service provider to connect calls
     through the Internet.

     Result: Using the Internet provider’s connectivity, the Embassy
     saves about $3,000 monthly.



     Best Practice: Network Assisted Notification Yeoman

     Issue: How a U.S. direct-hire employee ensures all departure
     tasks are accomplished.

     Response: Automating a notification system that sends messages
     regarding departure tasks.

     Result: Departure is efficient and trouble-free.




50   Office of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Inspection of Embassy Zagreb, Croatia
(ISP-I-09-54A)

Embassy Zagreb effectively carried out U.S. priorities in Croatia as reﬂected in the
Mission Strategic Plan. The Ambassador had productive relations with Croatia’s
leadership, and for the last 3 years, mounted a successful campaign to help prepare
Croatia to attain membership in the North Atlantic Treaty Organization, which oc­
curred in April 2009. This was the United States’ highest priority in its relations with
Croatia.

The Ambassador and deputy chief of mission (DCM) led an unusually cohesive,
productive, and effective team. The deputy chief of mission led a model program to
mentor and develop the skills of the entry-level ofﬁcers.

The political/economic section was a well-staffed and internally cohesive unit. Man­
agement and mentoring in the section was effective, and morale was high. Supported
by a strong team of locally employed staff, the section’s reporting and analysis were
generally held in high regard by Washington end-users. Outreach to contacts in the
Croatian Government, nongovernmental organizations, and international organiza­
tions, was exceptionally broad.

Embassy Zagreb’s public affairs section carried out a highly innovative and effec­
tive public diplomacy program, compensating for the lack of proximity to its audi­
ences through wide-ranging outreach programs, American Corners, exchanges, and
grants. The public affairs section and the political/economic section collaborated on
a polished, professional daily media brieﬁng open to the entire embassy. The brieﬁng
informed embassy staff about Croatian developments and built esprit de corps.

The consular section provided efﬁcient, courteous customer service and was ap­
propriately staffed for the current workload. The management section was well-led,
adequately resourced, and an active participant in Bureau and Department programs,
such as the Collaborative Management Initiative and the Rental Benchmark Initiative.
Ofﬁcers in the section had excellent development opportunities.




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                51
                                        BEST PRACTICES

     Inspection of Embassy Zagreb, Croatia (ISP-I-09-54A)

     Best Practice: Entry-Level Officer Mentoring and Development Program

     Issue: Entry-level officers need to build skills suitable to their futures as Foreign Service
     professionals but typically lack adequate training, experience in their chosen specialties, or
     contact with senior officers.

     Response: Under the leadership of the DCM, Embassy Zagreb developed a comprehen-
     sive program that provides generalist and specialist entry-level officers with substantive
     work experiences, public speaking opportunities, field trips and reporting tasks, in depth
     acquaintance with the host country, regular mentoring and training, exposure to representa-
     tional events, and rotational duties.

     Result: The entry-level officers at Embassy Zagreb are well prepared for future challenges
     and leadership positions.




     Best Practice: Security Coordination and the Google User Group

     Issue: In February 2009, Embassy Zagreb and the International Criminal Investigative
     Training and Assistance Program, together with the United Nations Development Pro-
     gram and the British Embassy, initiated a donor coordination group for law enforcement
     programs. The group was necessary because there was little coordination among the Euro-
     pean Union donors, many of whom did not know each other. The objective was to provide a
     forum to discuss how the United States and other donor programs could help Croatia meet
     its goals for European Union accession.

     Response: The security coordination group convenes representatives from donor coun-
     tries, the International Office on Migration, the United Nations Development Program, the
     European Commission, the Croatian Ministries of Justice and Internal Affairs, the National
     Office for Suppression of Organized Crime and Corruption, the State Intellectual Property
     Office, and the Croatian police.

     Result: The security coordination group provides donor members with an online forum to
     collaborate and exchange ideas on the types of assistance that are most useful to Croatia.
     Members learn whether there are any pressing needs and priorities from the Croatians and
     discuss how to avoid duplication of programs. To supplement security coordination group
     meetings, an Embassy Zagreb political officer has proposed starting a restricted Google
     user group to include an unclassified database with up-to-date information on donor initia-
     tives and spreadsheets of donor programs. The online user group would allow members to
     share information about the availability of visiting experts who, while in Croatia, might make
     presentations to additional audiences. Croatian Government users could input data on proj-
     ect progress or proposed legislation in the fight against organized crime, money laundering,
     trafficking in persons, intellectual property rights, and other issues.




52    Office of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
         Best Practice: Embassy-Wide Media Briefing

         Issue: Embassy Zagreb needs to provide a daily media briefing for the Ambassador, DCM,
         and other senior staff to inform them about Croatian developments and attitudes towards
         issues of importance to the United States.

         Response: The public affairs section and political/economic section collaborate in a daily,
         early- morning media briefing open to all members of the embassy staff, LE staff as well
         as Americans. The public affairs section’s information specialist and a political/economic
         LE staff member report and analyze Croatian dailies, weeklies, and television in a highly
         professional briefing, which is similar in format and style to a morning news program.

         Result: The Ambassador, DCM, and embassy staff who attend receive a focused, com-
         prehensive media briefing that helps them to determine priorities for the day, understand
         Croatian public opinion trends, and target public diplomacy activities. The briefing also
         provides an opportunity for American and LE staff from different sections to interact with the
         Ambassador and with each other, contributing to good morale and building esprit de corps.




         Global Positioning System Solution (ISP-I-09-70)

         Best Practice: Use of existing global positioning system (GPS) technology

         Issue: During a recent post security program review, conducted by the Bureau of Diplomat-
         ic Security, the Embassy Zagreb regional security office was cited for not having individual
         route maps to all embassy residences.

         Response: To fulfill the route map requirement, the security office used existing GPS tech-
         nology. They loaded the coordinates for every embassy residence into available GPS units
         mounted in mobile patrol and security office vehicles. To ensure good operational security,
         residences were entered into the GPSs with sequential numbers (not associated with the
         address) instead of referencing the name or affiliation of the occupant. When a home alarm
         system is activated, Post One contacts the mobile patrol and provides only the number of
         the residence affected.

         Result: This practice takes advantage of existing GSP technology, is cost effective, and
         could potentially save lives.




Office of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009       53
Inspection of Embassy Sarajevo, Bosnia and
Herzegovina (ISP-I-09-55A)

Embassy Sarajevo ably advanced U.S. policy toward Bosnia and Herzegovina despite
accelerating local trends toward interethnic segregation and conﬂict. The Ambassa­
dor’s forceful advocacy and access to top leaders in all three of the country’s com­
munities was the United States’ best asset on the ground.

Bosnia and Herzegovina is one of a handful of countries in which the United States
is actively engaged in nation-building. Various sections of the Embassy did an excel­
lent job supporting the Ambassador and the DCM in intensive reporting, advocacy,
and outreach.

Embassy Sarajevo’s front ofﬁce procedures for decision-making and information-
processing were cumbersome and labor-intensive. Embassy leadership needed to
eliminate the staff aide position, delegate more decision-making authority, and mod­
ernize the ﬂow of information to and from the front ofﬁce.

The political section’s large stafﬁng was justiﬁed by the nature of the work, but
moving a position from Sarajevo to the branch ofﬁce in Banja Luka would allow the
Embassy to better conduct reporting on and advocacy in Republika Srpska, one of
the two entities that comprise Bosnia and Herzegovina.

The management section provided high levels of service to its customers. The locally
employed staff was exceptionally knowledgeable, displaying a cohesiveness partly
forged in their shared wartime experiences from 1992 to 1995. This harmony was
especially impressive given the animosities that persisted in the society at large.

The Embassy needed to engage in a new round of rightsizing as it approached the
move into its new embassy compound in 2010 and consolidated six buildings in
Sarajevo to one. The size of the local guard force and other management operations
also needed to be reduced.

 The OIG inspection team recommended other changes in stafﬁng, including elimi­
nating a consular ofﬁcer position and adding a fourth ofﬁcer in the public affairs
section.




54      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
               Balkan Language Issues Memorandum Report
                                             (ISP-I-09-72)

     During the OIG inspection of embassies in Bosnia and Herzegovina,
     Croatia, Montenegro, and Serbia, the inspection team heard concerns
     from Foreign Service ofﬁcers and embassy managers regarding the De-
     partment’s practice of treating Bosnian, Croatian, and Serbian as three
     separate languages for both training and assignments purposes, although
     they are essentially dialects of one language. This practice costs the
     Department money for training and testing, and keeps employees—who
     are needed in the ﬁeld—in training that may not be necessary. In addi-
     tion, this practice does not facilitate creating a cadre of language-qualiﬁed
     employees who can ﬁll positions throughout the region. OIG recommends
     the Department treat the three regional variants of Serbo-Croatian as one
     language for both training and assignments purposes.




    Bureau of Near Eastern Affairs


Inspection of Embassy Baghdad, Iraq
(ISP-I-09-30A)

With strong leadership and a dedicated staff, Embassy Baghdad had advanced the
interests of the United States by helping the Iraqis improve security, promote recon­
ciliation, and take steps toward the creation of a stable, representative government.
Cooperation between the Embassy and the U.S. military was exemplary, and embassy
leaders earned the respect of their military colleagues. The Embassy must make a
transition from a large, sprawling wartime entity where people and resources have
been mobilized to implement hundreds of projects and programs to a more normal
diplomatic mission in which it will have constraints on personnel and funding.

Embassy Baghdad was overstaffed for its evolving mission. The OIG team recom­
mended that the Embassy and the Department conduct a rightsizing review before
the beginning of the summer 2009 assignment cycle. This would help strike a bet­
ter balance between personnel and mission requirements, and synchronize with the
Department’s assignment process. The Embassy did not have a sufﬁciently rigor-

Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                55
ous, high-level review process to ensure that all proposed new hires and extensions
of current employees were fully warranted, and should proceed with its plans to
implement such a process. In the interest of rightsizing and the most effective use
of declining resources, Embassy Baghdad and the Department needed to conduct a
reassessment of U.S. assistance programs in Iraq.

The U.S. military was maintaining an active relationship with Iraqi civilian ofﬁcials.
The OIG team recommended that the new Ambassador and his military counter­
parts manage the transition to full responsibility by the Embassy for relations with
Iraqi civilian ministries. The drawdown of the U.S. military will cause gaps in essen­
tial services that it was providing to the Embassy, which therefore needed to acceler­
ate planning for alternatives.

Despite security constraints, the quality of political reporting was high. This could
be done with fewer ofﬁcers, however, if the Embassy could hire more Iraqi staff. Re­
porting from the PRTs was much appreciated in Washington, but it varied in quality.
Some PRT reporting ofﬁcers could beneﬁt from additional training. The Ofﬁce of
Provincial Affairs was managing the phase-down of PRTs and their assistance pro­
grams. It was important during the transition period that PRTs focus on programs
that could earn Iraqi buy-in, serve longer-term development goals, and be sustain­
able.

Management controls in key areas such as overtime and property accountability were
weak, leaving Embassy Baghdad vulnerable to waste, fraud, and mismanagement.
Travel into and out of Baghdad was onerous for the traveler and consumed a consid­
erable amount of the management section’s time and energy. This situation posed a
signiﬁcant morale issue among embassy personnel. The Embassy, led by the chargé,
was developing alternatives, but these could require additional funding.

The work-life balance at the Embassy was out of kilter, causing stress and tension
among employees. Improving this situation was not easy since people were living and
working on the same compound. But a day and a half per week, at least, should be
freed up for people to use as they wish. The Department could assist in this effort
through reviewing the number and timing of its taskings and other demands on the
Embassy. Embassy leadership had already made commendable efforts in this direc­
tion.

The incentive package and tour of duty length offered to Foreign Service and Civil
Service employees in Iraq may have been outdated in the context of service need,
impact on the work force, and continuity. Reassessment and any modiﬁcation had
some urgency due to the upcoming summer 2009 assignment cycle.

The consular section was successful in providing public services in what was still a
war zone. Nevertheless, expansion of nonimmigrant visa services to all categories
of visa applicants was impractical until the consular section made vital operational
improvements, such as on-line appointment systems. At the same time, overall num-

56      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
bers will remain limited until the Embassy’s security procedures and facilities permit
a greater number of applicants.

Months-long processing delays caused by mandatory Security Advisory Opinion
requirements that did not reﬂect current conditions and were not implemented in a
timely manner undermined important U.S. interests and impaired efforts to normal­
ize relations.

Embassy Baghdad did not have a strategic and operational plan for public diplomacy
outreach to build on lessons learned and memorialize successes so that successors
would have institutional knowledge and a base from which programs could expand.



     Bureau of Western Hemisphere Affairs

Inspection of Embassy Mexico City, Mexico
(ISP-I-09-21A)

The mission was well-run with strong leadership from the Ambassador and the
DCM. Interagency coordination was exceptionally good. Mission Mexico had been
successful in representing and advancing the political, economic, and security inter­
ests of the United States in this key country, but the mission was understaffed and
underfunded. The resource issue, if not corrected, will hinder the mission’s ability to
meet its goals.

Management operations were already under stress; the mission will need more
management staff to support increases in consular workload and the Merida Initia­
tive. The OIG team estimated that the mission needed 14 additional American and
LE staff management employees, but the mission needed to do a detailed rightsizing
analysis to determine correct stafﬁng needs.

A major challenge for mission leadership was to improve communication between
the Embassy and its constituent posts, especially on reporting and management
issues. While economic reporting was strong, political reporting had become too
focused on immediate security developments. Washington consumers needed more
analytical reporting on political dynamics and important trends. A transfer of report­
ing positions to the consulates general had not increased reporting on border issues
as envisioned in a 2006 OIG inspection. The Embassy had not yet provided sufﬁ­
cient guidance, oversight, and resources to this function.

Embassy Mexico City had not empowered the consulates general with ﬁnancial man­
agement responsibilities and accountability. The consulates general perceived ﬁnan­
cial management as overly centralized and inﬂexible.


Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                57
The dramatically increasing violence, especially in the border cities, highlighted the
need for the Department to create a policy package that would give Foreign Service
employees at the border posts the option of living on the U.S. side of the border.

The immigrant visa workload in Consulate General Ciudad Juarez was increasing
dramatically and more consular ofﬁcer and LE staff positions needed to be added
there. The OIG team recommended that the Department reinstate the Civil Service
visa adjudicator program as part of the personnel mix in the immigrant visa unit in
Ciudad Juarez.



Inspection of Embassy Bridgetown, Barbados
(ISP-I-09-33A)

A chargé d’affaires with extensive regional and management experience was leading
Embassy Bridgetown with evident skill. Programmatic activities were ﬁrst rate and
the mission functioned as a cohesive, collegial team.

Given the seven countries and numerous possessions it covered, travel and logistical
difﬁculties, large numbers of temporary duty personnel not captured in support cost
estimates, and the need to support a new chancery, the Embassy was underfunded
and understaffed. Travel and representation funds were grossly inadequate for effec­
tive representation.

The OIG team recommended that the Department downgrade the tiny embassy in
St. George’s, Grenada, which was under Embassy Bridgetown authority, to a consular
agency, and increase stafﬁng at the consular agency in Antigua to preclude gaps in
coverage. The team also recommended that the Department create a consular agency
in Saint Lucia.

The Embassy’s sizeable counternarcotics component was addressing its major strate­
gic goal of combating illegal drugs, and a qualiﬁed person was temporarily ﬁlling the
Department’s key counternarcotics position. This short-term arrangement, however,
was no substitute for a permanent ofﬁcer assigned by the Bureau of International
Narcotics and Law Enforcement Affairs with an adequate program budget.




Inspection of Embassy Kingston, Jamaica
(ISP-I-09-35A)

Embassy Kingston’s chargé d’affaires had cultivated the necessary range of Jamaican
contacts to effectively further U.S. programs in a bilateral environment where indi-

58      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
vidual relationships were hard to achieve and yet essential for getting things done.

The Embassy beneﬁtted from excellent interagency relationships, above all in the key
law enforcement area where nine agencies/sections almost invariably resolved opera­
tional issues on the spot rather than taking disputes to Washington.

The narcotics affairs section had intelligently refocused its modest budget to support
the reform of critical Jamaican institutions, without which meaningful counternar­
cotics progress could not happen.

Embassy supervisors were more effective in managing programs than people. An
atmosphere of fear and mistrust, dating back some years, existed throughout the
Embassy, above all in the general services ofﬁce. Embassy management had failed
to rein in insensitive supervisors as well as failed to address the concerns of, or even
meet regularly with, local employees either as a whole or with their designated repre­
sentatives.

The Embassy’s large consular section had experienced difﬁculties for several years.
Too few experienced ofﬁcers and too little leadership left entry-level ofﬁcers strug­
gling to control a complex, high-proﬁle, high-demand operation.

A lack of effective management controls resulted in unauthorized commitments that
have to be ratiﬁed as well as possible violations of the Antideﬁciency Act.

The new embassy compound, while aesthetically pleasing, was hampered by cor­
rectable design and construction ﬂaws, and the mission had a continuous need for
corrective improvements.



Inspection of Embassy Paramaribo, Suriname
(ISP-I-09-38A)

The Ambassador and DCM were strong and focused leaders who used an open and
collaborative management style to successfully meet U.S. strategic objectives in Suri­
name. The Ambassador was carefully overseeing the interagency team to maximize
the impact of limited foreign assistance funds.

Despite an aging chancery with safety and security vulnerabilities, poor quality
health service and less-experienced staff, the Ambassador ensured high staff mo­
rale through mentoring, listening to staff, and visiting all sections of the Embassy
regularly. The new embassy compound replacement has been postponed from 2013
to 2018 or later. Maintaining a safe, secure, functional chancery compound in the
interim will require commitment from OBO.

Embassy Paramaribo, despite aging facilities stretched to capacity, carried out a secu­

Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                59
rity program that met the challenges of its environment in Suriname. The Ambassa­
dor and DCM strongly supported the security program and exercised good oversight.

Embassy Paramaribo carried out an active public diplomacy agenda despite limited
resources. However, American ofﬁcers carrying out this agenda were trained primar­
ily in political and economic reporting, rather than in public diplomacy. The political-
economic section was submitting well-written required annual reports (e.g., Human
Rights, Investment Climate Statement, Trafﬁcking in Persons, Counterterrorism,
Counternarcotics, and Child Labor reports), but other reporting was sparse.

The medical insurance coverage of the LE staff was not in line with that of the mis­
sion’s comparators. Most comparators provided medical insurance to retirees. The vi­
ability of the pension plan provider of the LE staff was in doubt. The local standard
of health care was a major concern of American direct-hire employees.



Inspection of Embassy Port of Spain, Trinidad
and Tobago (ISP-I-09-40A)

Executive direction at Embassy Port of Spain was grappling with a host of challeng­
es: an inadequate physical plant; decades of personnel curtailments in key sections;
and eroded post morale stand out. While the chargé d’affaires was actively addressing
these issues, much greater Washington support was required.

The Embassy’s physical facilities were largely shabby and inefﬁcient, wasting staff
time and presenting a poor public face for the United States. Neglect goes back
decades. Funds for a new embassy were unlikely, even in the mid-term. Embassy
management needed to develop an organized plan of routine maintenance and repair
for aging facilities. The Department needed to give priority to funding such repairs.

With the scheduled consolidation of the economic and political sections in summer
2009 as well as the loss of the key economic section chief position, the Embassy
needed to plan carefully to meet its primary strategic goals.

While counternarcotics was deemed a high mission priority, the ﬁnancial and stafﬁng
resources Washington provided were not commensurate with the task.

The public affairs section found creative ways to enhance the U.S. image on a shoe­
string budget, including a student advising program, which served as a model for the
Caribbean region.

The consular section had instituted multiple, long-overdue reforms. In doing so,
frictions arose between the section and other mission elements, and the public. The
chief of mission and consular section chief needed to alleviate those frictions.


60      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Embassy Port of Spain was suffering from a host of management ills. General
services, in particular, was mismanaged and disorganized. Files were incomplete
or nonexistent in several management sections, in keeping with the general lack of
oversight and management controls.



Inspection of Embassy Quito, Ecuador
(ISP-I-09-42A)

The Ambassador and DCM exerted strong leadership over a complex and grow­
ing mission in a challenging, unpredictable, bilateral environment to meet strategic
goals and support U.S. foreign policy. The United States and Ecuador cooperated
to promote democracy, ﬁght narcotics trafﬁcking and crime, boost regional security,
promote economic development, and support job creation. Relations were strained
after Ecuador’s president expelled two embassy ofﬁcers for allegedly violating Ecua­
dor’s sovereignty.

Embassy Quito successfully moved onto a 13-acre new embassy compound that
colocated the Department, 13 other agencies, and a Marine security guard detach­
ment. The Ambassador and the DCM promoted staff morale and directed positive
interagency cooperation.

Embassy Quito was providing excellent reporting on a broad spectrum of political,
economic, and counternarcotics issues. Mission Ecuador’s counternarcotics program
was well-coordinated by the narcotics affairs section and drew on the expertise and
capabilities of all involved agencies to deliver effective programs and activities.

Five months after its move to the new embassy compound, Embassy Quito’s man­
agement operations were generally well-run and effectively supported the mission.
The assignment of a human resources ofﬁcer would further enhance management
operations.

Consulate General Guayaquil had high staff morale despite cramped quarters. The
consul general’s active interest and innovative programs contributed to this phenom­
enon and to the reversal of an unfavorable public image that prevailed during a 2003
inspection.

The new consulate building planned for Guayaquil will be too small to accommodate
anticipated growth of the Drug Enforcement Administration and the Department
of Homeland Security in Guayaquil. Mission Ecuador used the newly hired ofﬁcers
under the Diplomatic Readiness Initiative to support public diplomacy outreach
programs.

Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                61
                                        BEST PRACTICE
     Inspection of Embassy Quito, Ecuador (ISP-I-09-42A)

     Best Practice: Multimedia Media Summary

     Issue: Mission Ecuador ofﬁcers need a full understanding of U.S. issues as
     discussed in Ecuador’s media formats.

     Response: The Quito public affairs section produces a daily media summary
     sent to subscribed users via email, which provides a daily TV clip of the most
     important TV report and a menu to choose other TV clips. It has a similar
     choice of radio clips and press clips. Users can also send clips to other users
     for discussion, etc.

     Result: This media summary keeps mission ofﬁcers very well apprised of
     the media. In addition, access to TV video clips provides ofﬁcers with texts of
     public statements from Ecuadorian ofﬁcials that are more accurate than any
     found in the written media.

     Note: Missions should review 5 FAM 494 and local laws to ensure use of
     materials follows “fair use” principles.




62       Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
                                    INVESTIGATIONS



          Operations Division Receives Award for Excellence

    The Office of Investigations’ Operations Division merited an Award for Ex-
    cellence in Administrative (Investigative) Support. The Operations Division
    has many areas of responsibility, including drafting and revising the inves-
    tigative manual; preparing for and conducting investigative peer reviews;
    providing computer forensics, forensic auditing and investigative analyst
    support; running the OIG Hotline and Name Check programs; maintain-
    ing the official case files and case management system; managing the
    investigations budget and coordinating training; managing all collateral
    duties including firearms, defensive tactics and physical fitness training;
    and managing the official vehicle fleet. The past year and a half has been
    a time of extraordinary growth for the Office, and the Operations Division
    provided the foundational support to make this growth possible without
    suffering a loss in the quality of the Office’s work products.




Embezzlement
OIG conducted an investigation of a consular clerk who embezzled funds by gener-
ating false documentation to conceal the theft and making false statements regarding
refunds to visa recipients in a scheme that lasted from 2003 until December 2008.
When interviewed, the subject admitted to the embezzlement and stated that she
had spent the money on both of her ex-husbands, her daughter, her parents and her
designer wardrobe. The consular clerk was prosecuted in country and was terminated
from her position with the Embassy. On August 19, 2009, the subject was sentenced
to 6 years in prison and full restitution in the amount of $488,954. (09-042)



OIG conducted an investigation of a Department employee who diverted payroll
funds to his own personal bank account. The investigation determined that the
employee embezzled approximately $5,000 in this manner. On May 13, 2009, the
employee was indicted in U.S. District Court, District of South Carolina, on one
count of theft and embezzlement. On June 5, 2009, the employee resigned from the
Department. As of the end of the reporting period, the employee was being consid-
ered for a pre trial diversion on the embezzlement charge. (08-123)




Office of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009   63
Visa Fraud
OIG conducted a joint investigation with the Department of Labor-OIG concerning
two resident aliens who, while acting as immigration representatives, filed about 140
fraudulent permanent labor certification applications for West African immigrants.
Through the assistance of a cooperating witness, the investigation determined that
the subjects exaggerated or provided false information on the labor certification re-
garding clients’ job qualifications, the ability of the employer to pay stated salary and
the availability of the position by the employer in order to qualify the immigrants
for labor certifications. The subjects charged the immigrants approximately $2,500-
$5,000 apiece for preparing the fraudulent paperwork. The investigation further
determined that one of the American employers listed on the fraudulent paperwork
was paid by the subjects in order to allow his business name to be used as part of the
scam.

On May 20, 2009, one of the subjects pleaded guilty in the U.S. District Court, Dis-
trict of Maryland, to one count of visa fraud and agreed to testify against the other
subject. Prosecution of the other subject was pending a possible trial at the end of
the reporting period. On September 14, 2009, the employer who accepted money
from the subjects pleaded guilty to one count of visa fraud. Sentencing of the em-
ployer is pending. (08-018)


     On May 29, 2009, OIG Special Agents Lisa Foster and Rob Kirts received
     a Law Enforcement Public Service award given by the United States At-
     torney’s Office for the Northern District of Virginia in Alexandria. The award
     was presented by Assistant United States Attorney Beth Gibson to Special
     Agents Foster and Kirts for their work as part of a joint agency team that
     conducted a major visa fraud investigation that resulted in the arrests of
     15 defendants and the execution of 11 search warrants. The arrests and
     searches occurred in Illinois, Georgia, Maryland, and Virginia.




Employee Misconduct
OIG conducted an investigation of a senior Department manager and a female
subordinate who, while engaging in an extramarital affair, engaged in various unau-
thorized activities including improper personnel practices; improper acceptance of
gratuities from contractors to include free tickets to an NFL game and a Broadway
show; and contracting irregularities. The case was declined for criminal prosecution.




64       Office of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
On May 21, 2009, the Bureau of Human Resources issued a proposal to terminate
both employees, but later mitigated the action for the subordinate employee to a 14­
day suspension. (05-027)



Follow-Up Actions

Passport Information Electronic Imaging
System (PIERS) Inquiry

On March 20, 2008, Undersecretary of State for Management Patrick F. Kennedy
requested that OIG conduct an investigation after news media reports indicated that
the passport ﬁles of three presidential candidates had been improperly accessed by
three different Department contract employees on three different occasions through
the Passport Information Electronic Imaging System (PIERS). OIG subsequently
received additional information that improper accessing of PIERS records was
widespread, and involved many Department employees and contractors. The follow­
ing are actions that have resulted to date from OIG investigations involving this issue
during this semiannual reporting period, including six separate criminal prosecutions:

          OIG conducted an investigation of a Department contract employee
          who improperly accessed PIERS by looking up the passport ﬁles of
          two former Presidents as well as other individuals for non-ofﬁcial
          purposes. The investigation determined that the contract employee
          electronically accessed through PIERS 44 different passport applica­
          tions without authorization. The contract employee was terminated
          from his contract assignment with the Department. He pleaded guilty
          in U.S. District Court for the District of Columbia to one count of
          Unauthorized Computer Access, and on July 8, 2009, was sentenced
          to 12 months probation and a $5,000 ﬁne. (08-037)

          OIG conducted an investigation of a former Department employee
          who improperly accessed PIERS by looking up the passport ﬁles of
          prominent celebrities. The investigation determined that the former
          employee electronically accessed through PIERS over 32 different
          passport applications without authorization while she was employed
          by the Department. The employee was prosecuted in Municipal
          Court for the city of Boston. On May 15, 2009, the former employee
          pleaded guilty and was sentenced to 6 months’ probation. (08-107)




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                65
       OIG conducted an investigation of a Department employee who was
       improperly accessing PIERS to view the records of a former Presi­
       dent as well as and other prominent individuals. The investigation
       determined that the contract employee electronically accessed pass­
       port applications through PIERS without authorization. On August
       17, 2009, the employee pleaded guilty in U.S. District Court for the
       District of Columbia to one count of Unauthorized Computer Ac­
       cess. He will be sentenced on December 9, 2009. (08-044)

       OIG conducted an investigation of a former Department employee
       who improperly accessed PIERS by looking up the passport ﬁles
       of prominent celebrities. The investigation determined the former
       employee electronically accessed 150 different passport applications
       through PIERS without authorization while she was employed by
       the Department. On August 26, 2009, the employee pleaded guilty
       in U.S. District Court for the District of Columbia to one count of
       Unauthorized Computer Access. She will be sentenced December 15,
       2009. (08-080)

       OIG conducted an investigation of a supervisory Department em­
       ployee who improperly accessed PIERS by looking up the passport
       ﬁles of prominent celebrities. The investigation determined that
       the former employee electronically accessed 710 different passport
       applications through PIERS without authorization while she was
       employed by the Department. On August 19, 2009, the employee
       pleaded guilty in U.S. District Court for the District of New Hamp­
       shire. Sentencing is currently pending. (08-105)

       OIG conducted an investigation of a contract employee who im­
       properly accessed PIERS by looking up the passport ﬁles of a
       former President as well as other prominent celebrities. The investi­
       gation determined that the former employee electronically accessed
       through PIERS approximately 112 different passport applications
       without authorization while he was employed by the Department. On
       July 10, 2009, the employee pleaded guilty in U.S. District Court for
       the District of Columbia to one count of Unauthorized Computer
       Access. He will be sentenced October 23, 2009. (08-085)

OIG referred for disciplinary action numerous other instances of Department em­
ployees and contract employees improperly accessing PIERS that were less egregious
than those prosecuted. During this semiannual reporting period, a total of 25 written
admonishments were issued to employees for PIERS violations.




66      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
OIG’s pursuit of PIERS related investigations is ongoing. Because of the systemic
weaknesses identified by OIG during the overall PIERS inquiry, the Department has
enacted greater safeguards to protect the privacy of electronically stored Passport-
related information. (See OIG Semiannual Report, October 1, 2008, to March 31, 2009, pp
49-50)



Embezzlement

OIG conducted an investigation of an individual who worked for a vendor that
supplies repair services to the Department. The subject stole the credit card num-
ber from a Department credit card that was used to pay for the vendor services and
then used the number to make approximately $14,000 in unauthorized purchases.
On January 13, 2009, OIG agents arrested the subject. On March 10, 2009, the
subject pleaded guilty in U.S. Superior Court for the District of Columbia to one
count of fraud. In his plea agreement, the subject agreed to reimburse the govern-
ment $14,049. On May 15, 2009, the subject was sentenced to 100 days in a Halfway
House, 18 months probation, 200 hours of community service and directed to pay
$14,049 in restitution. (See OIG Semiannual Report, October 1, 2008, to March 31, 2009,
pp 51) (08-087)


OIG conducted an investigation of a foreign national employee serving at a U.S.
Embassy overseas who embezzled approximately $850,000 while working as an
embassy cashier. The employee stole the money through two separate fraud schemes;
the first involved submitting phony expense vouchers for monetary payment and the
second involved obtaining cash advances from the Embassy’s cash advance accounts
at two local banks. The cashier was terminated from employment and brought to the
United States for prosecution. On January 21, 2009, the employee pleaded guilty in
U.S. District Court for the District of Columbia to one count of theft and embezzle-
ment. On June 8, 2009, the subject was sentenced 18 months imprisonment directed
to pay $850,266 in restitution. (See OIG Semiannual Report, October 1, 2008, to March
31, 2009, pp 51) (08-088)




Office of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009   67
Hotline

Referral to Other Ofﬁces for Action 242


Held for Action Within OIG 87


No Action Necessary 158


Total Complaints Received 487





     On May 29, 2009, OIG Special Agents Lisa Foster and Rob Kirts received
     a Law Enforcement Public Service award given by the United States At-
     torney’s Ofﬁce for the Northern District of Virginia in Alexandria. The award
     was presented by Assistant United States Attorney Beth Gibson to Special
     Agents Foster and Kirts for their work as part of a joint agency team that
     conducted a major visa fraud investigation that resulted in the arrests of
     15 defendants and the execution of 11 search warrants. The arrests and
     searches occurred in Illinois, Georgia, Maryland and Virginia.




68       Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
APPENDIX 1: DEPARTMENT OF STATE INVESTIGATIVE ACTIVITIES


   Preliminary Inquiries
   Opened                                                                 36
   Closed                                                                 34

   Investigations
    Opened                                                               60
    Closed                                                               53
    Pending (9/30/09)                                                   104

   Criminal Actions
   Referrals for Prosecution                                              11
   Indictments/Informations                                                3
   Convictions                                                             6
   Sentencings (Months Imprisonment)                                      93
   Sentencings (Months Probation)                                         36
   Declinations                                                            7

   Civil Actions
   Civil Referrals                                                         7
   Civil Judgments                                                         0

   Administrative Referrals
   Referrals for Personnel Action                                         13
   Suitability Referrals to DS                                            11

   Administrative Actions
   Removals                                                                4
   Suspensions                                                             2
   Reprimands/Admonishments                                               31
   Debarment Actions                                                       0

   Monetary Recoveries
   Criminal Fines/Recoveries                                   $1,358,294
   Civil Recoveries                                                    $0
   Administrative Recoveries                                           $0
   Total Investigative Recoveries                              $1,358,294




  Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
  Ofﬁce                                                                                                69
70   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
                         APPENDIX 2: REPORTS ISSUED



Report Number             Report Title
AUD/CG-09-23              Independent Accountants’ Report on the Application of
                          Agreed-Upon Procedures on Indirect Cost Rates Proposed by
                          the National Committee on United States-China Relations, Inc.
AUD/FM-09-11              Management Letter Related to the Audit of the U.S. Depart­
                          ment of State 2008 and 2007 Financial Statements
AUD/FM-09-17              Independent Auditor’s Report on the International Boundary
                          and Water Commission, United States and Mexico, U.S. Sec­
                          tion, 2008 and 2007 Financial Statements
AUD/FM-09-18              Management Letter Related to the Audit of the International
                          Boundary and Water Commission, United States and Mexico,
                          U.S. Section, 2008 and 2007 Financial Statements
AUD/FM-09-19              Independent Auditor’s Report on the Foreign Service Retire­
                          ment and Disability Fund, 2008, 2007, and 2006 Financial
                          Statements
AUD/FM-09-20              Management Letter Related to the Audit of the Foreign Service
                          Retirement and Disability Fund, 2008, 2007, and 2006 Financial
                          Statements
AUD/IP-09-22              Audit of the Contract and Procurement Process for Selected
                          Projects at U.S. Embassy Jakarta
AUD/IP-09-24              Audit of the Timeliness of Department Payments Subject to
                          the Prompt Payment Act
AUD/IQO-09-16             Joint Audit of Blackwater Contract and Task Orders for World­
                          wide Personal Protective Services in Iraq
AUD/SI-09-15              Audit of Property Accountability, Inventory Controls, and
                          Encryption of Laptop Computers at Selected Department of
                          State Bureaus in the Washington, DC, Metropolitan Area
ISP-I-09-16               Inspection of the Executive Ofﬁce of the Bureau of Diplo­
                          matic Security
ISP-I-09-21A              Inspection of Embassy Mexico City, Mexico
ISP-I-09-30A              Inspection of Embassy Baghdad, Iraq
ISP-I-09-31A              Inspection of Embassy Bern, Switzerland
ISP-I-09-32A              Inspection of Embassy Brazzaville, Republic of the Congo
ISP-I-09-33A              Inspection of Embassy Bridgetown, Barbados
ISP-I-09-34               Inspection of Bureau of Consular Affairs, Passport Services
ISP-I-09-35A              Inspection of Embassy Kingston, Jamaica




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                71
ISP-I-09-36A           Inspection of Embassy Kinshasa, Democratic Republic of the
                       Congo
ISP-I-09-37A           Inspection of Embassy London, United Kingdom
ISP-I-09-38A           Inspection of Embassy Paramaribo, Suriname
ISP-I-09-40A           Inspection of Embassy Port of Spain, Trinidad and Tobago
ISP-I-09-41A           Inspection of Embassy Praia, Cape Verde
ISP-I-09-42A           Inspection of Embassy Quito, Ecuador
ISP-I-09-43            Management Review of the Ofﬁce of the Historian Bureau of
                       Public Affairs
ISP-I-09-44            Review of Locally Employed Staff Compensation Issues
ISP-I-09-54A           Inspection of Embassy Zagreb, Croatia
ISP-I-09-55A           Inspection of Embassy Sarajevo, Bosnia and Herzegovina
ISP-I-09-63            Inspection of the Bureau of African Affairs (AF)
ISP-I-09-65            Inspection of the Ofﬁce of the U.S. Special Envoy for Sudan
                       (S/USSES)
ISP-I-09-69            Interagency Evaluation of the Section 1206 Global Train and
                       Equip Program
ISP-I-09-70            Global Positioning System Solution
ISP-I-09-72            Balkan Language Issues Memorandum Report
MERO-A-09-08           Performance Audit of the U.S. Training Center Contract for
                       Personal Protective Services in Afghanistan
MERO-A-09-10           Performance Audit of Embassy Baghdad’s Transition Planning
                       for a Reduced United States Military Presence in Iraq
MERO-A-09-12           Memorandum Report on the Preliminary Review of the Sec­
                       ond Worldwide Personal Protective Services (WPPS II) Con­
                       tract Task Orders
MERO-I-09-07           Limited-Scope Audit of Management/Internal Controls over
                       the J. William Fulbright Scholarship Fund, Pakistan
MERO-I-09-09           Review of the Roles, Stafﬁng, and Effectiveness of the Region­
                       al Embassy Ofﬁces in Iraq
MERO-IQO-09-03         Review of Triple Canopy WPPS Performance
MERO-IQO-09-04         Interim Report on Role, Stafﬁng, and Effectiveness of the
                       Regional Embassy Ofﬁce in Hillah, Iraq
MERO-IQO-09-05         Review of Triple Canopy WPPS II Personal Protective Services
                       in Jerusalem
MERO-IQO-09-06         Performance Audit of the DynCorp Contract for Personal
                       Protective Services in Iraq




72     Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
CLASSIFIED REPORTS ISSUED

(summarized in the Classiﬁed Annex)

 Report Number Report Title
 AUD/IT-09-21 Review of the Information Security Program for Sensitive Com­
               partmented Information Systems at the Department of State
               (FISMA)
 ISP-S-09-21A  Classiﬁed Annex to the Inspection of Embassy Mexico City,
               Mexico
 ISP-S-09-30A  Classiﬁed Annex to the Inspection of Embassy Baghdad, Iraq
 ISP-S-09-31A  Classiﬁed Annex to the Inspection of Embassy Bern, Switzerland
 ISP-S-09-32A  Classiﬁed Annex to the Inspection of Embassy Brazzaville, Repub­
               lic of the Congo
 ISP-S-09-33A  Classiﬁed Annex to the Inspection of Embassy Bridgetown, Barba­
               dos
 ISP-S-09-35A  Classiﬁed Annex to the Inspection of Embassy Kingston, Jamaica
 ISP-S-09-36A  Classiﬁed Annex to the Inspection of Embassy Kinshasa, Demo­
               cratic Republic of the Congo
 ISP-S-09-37A  Classiﬁed Annex to the Inspection of Embassy London, United
               Kingdom
 ISP-S-09-38A  Classiﬁed Annex to the Inspection of Embassy Paramaribo, Suri­
               name
 ISP-S-09-40A  Classiﬁed Annex to the Inspection of Embassy Port of Spain,
               Trinidad and Tobago
 ISP-S-09-41A  Classiﬁed Annex to the Inspection of Embassy Praia, Cape Verde
 ISP-S-09-42A  Classiﬁed Annex to the Inspection of Embassy Quito, Ecuador
 ISP-S-09-54A  Classiﬁed Annex to the Inspection of Embassy Zagreb, Croatia
 ISP-S-09-55A  Classiﬁed Annex to the Inspection of Embassy Sarajevo, Bosnia
               and Herzegovina




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                73
74   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
APPENDIX 3: SAVINGS AND MORE EFECTIVE USE OF RESOURCES


                                  Table 1

                  INSPECTOR GENERAL ISSUED AUDIT REPORTS

                          WITH QUESTIONED COSTS 


          Type of Report                             Number of          Questioned          Unsupported
                                                      Reports                 Costs                Costs
                                                                         (Dollars in          (Dollars in
                                                                        Thousands)           Thousands)
   A.	    For which no management decision                7                 $30,487              $26,106
          has been made by the commence­
          ment of the reporting period *


   B.	    Which were issued during the re-                2                  $56,039               $55,326
          porting period
          Subtotals (A + B)                               9                  $86,526               $81,432

   C.	    For which a management decision                                    $55,162               $55,000
          was made during the reporting
          period

          (i) dollar value of disallowed costs            1	                      $20                     $0


          (ii) dollar value of costs not                  2                  $55,142               $55,000
          disallowed
   D.	    For which no management decision                8                  $31,364               $26,432
          has been made by the end of the
          reporting period


          Reports for which no manage-                    6                  $30,324               $26,105
          ment decision was made within six
          months of issuance




  *Final amounts in previous SAR were adjusted due to reporting and other errors, based on an extensive
  analysis of open recommendations.




  Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
  Ofﬁce                                                                                                        75
                              Table 2

            INSPECTOR GENERAL ISSUED AUDIT REPORTS

               WITH RECOMMENDATIONS THAT FUNDS 

                      BE PUT TO BETTER USE 


     Type of Report                                            Number of                Dollar Value
                                                                Reports              (in Thousands)
A.	 For which no management decision has
    been made by the commencement of the
                                                                     0                              	$0
    reporting period
B.	 Which were issued during the reporting
    period                                                           1                         $8,100
     Subtotals (A + B)
                                                                     1	                        $8,100
C.	 For which a management decision was
    made during the reporting period                                                                $0
    (i) dollar value of recommendations that
    were agreed to by management                                     0                              $0
     *based on proposed management action
                                                                     0                              $0
     *based on proposed legislative action
                                                                     0                              	$0
     (ii) dollar value of recommendations that
     were not agreed to by management                                0                              $0
D.	 For which no management decision has
    been made by the end of the reporting
                                                                     1	                        $8,100
    period
     Reports for which no management
     decision was made within six months of                          0                              $0
     issuance




76     Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
   APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS


Previously Reported Signiﬁcant Audit Recommendations 

Pending Final Action
Report Number Rec. No.              Report Title                                                           First Reported

                                    Recommendation Summary
AUD/CG-05-26                        Review of Selected Grants Awarded to Institute for the Study                   10/05
                                    & Development of Legal Systems
                    3               OIG recommended the Bureau of Educational and
                                    Cultural Affairs grants ofﬁcer disallow all unsup­
                                    ported expenses charged to Grant PSPS-G6190048
                                    – India and Grant S-ECAPE-02-GR -046 (CS) –
                                    Turkey.
AUD/CG-06-02                        Application of Agreed-Upon Procedures to George Mason                           2/06
                                    University Awards
                    4               OIG recommended the Bureau of Educational and
                                    Cultural Affairs grants ofﬁcer:
                                    • Ensure that George Mason University follows through with
                                    proposed guidelines related to cost share;
                                    • Require the University to provide supporting
                                    documentation for claimed cost share amounts totaling $354,
                                    248 for Grants ASMA-0324 and S-ECAAS-02-GR-251); and
                                    • Reduce the grants accordingly and require the University to
                                    reimburse applicable unmet cost share amounts.

AUD/IQO-07-20                       Review of DynCorp International, LLC, Contract Num-                             1/07
                                    ber S-LMAQM-04-C-0030, Task Order 0338, for the
                                    Iraqi Police Training Program Support (Joint audit with the
                                    Special Inspector General for Iraq Reconstruction
                    2               OIG recommended the Ofﬁce of Acquisitions
                                    Management seek reimbursement from DynCorp
                                    for the improperly authorized payment of $4.2 mil­
                                    lion that represents contractually unauthorized work
                                    directed by the Iraqi Ministry of Interior. This work
                                    included the relocation of the residential camp, the
                                    manufacture of additional VIP trailers, and the con­
                                    struction of an Olympic-size swimming pool.




      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
      Ofﬁce                                                                                                           77
Report Number Rec. No.          Report Title                                                          First Reported

                                Recommendation Summary
AUD/IQO-07-48                   Accounting for Government-Owned Personal Property Held                            09/07
                                by Selected Contractors in Afghanistan

                1               OIG recommended the Department develop and
                                implement policies and procedures to achieve com­
                                pliance with Federal Acquisition Regulation require­
                                ments for reviewing a contractor’s property control
                                system.
                2               OIG recommended the Department take actions to
                                address the $2.9 million in unallowable costs identi­
                                ﬁed in this report, including reconciling contract re­
                                quirements to the property acquired and invoiced by
                                the contractors for which they were reimbursed and
                                determine whether property in excess of amounts
                                speciﬁed in the contract or task order was required
                                to accomplish contract objectives; documenting the
                                reconciliation and determination, use them as the
                                basis for approving the costs of any excess property
                                deemed allowable, and issue a modiﬁcation to the
                                task order indicating the approval; and resolving any
                                unallowable costs associated with property that was
                                determined to be unnecessary to the accomplish­
                                ment of contract objectives.
                3               OIG recommended the Department take the fol­
                                lowing steps to address the $25.5 million in unsup­
                                ported costs indentiﬁed in this report: reconcile the
                                property acquired and invoiced by the contractors
                                for which they were reimbursed to the contractor’s
                                property lists by obtaining and reviewing contractor
                                documentation detailing the types and quantities of
                                property acquired; determine whether the property
                                was needed and consistent with contract require­
                                ments; and resolve any unsupported allowable costs
                                associated with property that could not be support­
                                ed with adequate documentation or was determined
                                to be unnecessary to the accomplishment of con­
                                tract objectives.




       78    Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Report Number Rec. No.                Report Title                                                        First Reported

                                      Recommendation Summary
                     5                OIG recommended the Department evaluate
                                      its current structure for monitoring government
                                      property held by contractors, assess the beneﬁts of
                                      creating a property administrator function, and use
                                      this evaluation to clearly deﬁne the authority and re­
                                      sponsibility for property oversight for each member
                                      of its contract administration team.
AUD/SI-07-27                          Audit of Emergency Preparedness at the Washington Metro-                     3/07
                                      politan Facilities of the Department of State
                     2                OIG recommended the Bureau of Administration
                                      ensure the Ofﬁce of Emergency Management’s
                                      Planning and Preparedness Division has sufﬁcient
                                      stafﬁng to ﬁnalize 6 FAM 400, Ofﬁce of Emergency
                                      Management Program, and the proposed 6 FAH-1
                                      H-100, Domestic Emergency Handbook, and ensure
                                      the emergency preparedness policies and procedures
                                      contained in these manuals are implemented and
                                      enforced in a timely manner.
AUD/CG-07-25                          Review of the Institute of International Education’s Indirect                4/07
                                      Cost Rates for Fiscal Years 2002-05
                     1                OIG recommended the Bureau of Educational and
                                      Cultural Affairs grants ofﬁcer require the Institute
                                      of International Education to consistently account
                                      for severance pay for FYs 2002-05 as indirect or
                                      direct costs, identify overpayments of severance and
                                      other beneﬁts related to the severance pay, reim­
                                      burse the Department for unallowable severance pay
                                      and beneﬁts, reduce the fringe beneﬁts pool by the
                                      overpayments, and recompute the fringe beneﬁts
                                      pool for allocation to the other cost pools
                     2                OIG recommended the Bureau of Educational and
                                      Cultural Affairs grants ofﬁcer require the Institute
                                      of International Education to reimburse the Depart­
                                      ment for bond and loan interest, personal living, and
                                      other indirect costs classiﬁed as unallowable; reduce
                                      the indirect cost pools by the unallowable costs; and
                                      recompute the indirect cost rates in the appropriate
                                      pools.



     Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
     Ofﬁce                                                                                                          79
Report Number Rec. No.          Report Title                                                          First Reported

                                Recommendation Summary
AUD/CG-07-29                    Independent Accountants’ Report on the Application of                           6/07
                                Agreed-Upon Procedures on Costs Claimed by Atlantic Cor-
                                ridor U.S.A., Inc., Under Department of State Grants
                1               OIG recommended the Bureau of Educational and
                                Cultural Affairs require Atlantic Corridor to refund
                                the Department the $226,705 in excess drawdowns
                                related to Department grants and prohibit any
                                future drawdowns until the funds are repaid and the
                                grantee has established controls limiting any future
                                requests of grant funds to the minimum amount
                                necessary to cover allowable costs.
                2               OIG recommended the Bureau of Educational and
                                Cultural Affairs require Atlantic Corridor to refund
                                the Department for $45,361 of unallowable costs
                                related to the grants and to provide information so
                                that the Department can make an appropriate deter­
                                mination on the unsupported costs of $97,388.
AUD/CG-07-37                    Independent Accountants’ Report on the Application of                           9/07
                                Agreed-Upon Procedures on Costs Claimed by Meridian
                                International Center Under Department of State Coopera-
                                tive Agreements
                1               OIG recommended the Bureau of Educational and
                                Cultural Affairs (1) determine whether the Center’s
                                use of the forgone opportunity costs concerning
                                the Center’s conference facilities constitutes an ap­
                                propriate cost-share amount under the cooperative
                                agreement, and (2) following this determination,
                                as appropriate, require the Center to provide sup­
                                porting documentation for the claimed cost-share
                                amounts or an alternative cost-sharing proposal.
AUD/CG-08-02                    Independent Accountants’ Report on the Application of                           1/08
                                Agreed-Upon Procedures on Costs Claimed by Young Men’s
                                Christian Association of Greater New York Under Depart-
                                ment of State Grants
                4               OIG recommended that the Bureau of Educational
                                and Cultural Affairs require the Association to sub­
                                stantiate the unsupported payroll costs or reimburse
                                the Department for these costs.




      80   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Report Number Rec. No.               Report Title                                                         First Reported

                                     Recommendation Summary
AUD/CG-08-10                         Independent Accountants’ Report on the Application of                         1/08
                                     Agreed-Upon Procedures on Indirect Cost Rates Proposed by
                                     NAFSA: Association of International Educators
                    1                OIG recommended that the Bureau of Administra­
                                     tion, Ofﬁce of Logistics Management, Ofﬁce of
                                     Acquisitions Management, International Programs
                                     Division, accept and ﬁnalize the indirect cost rates
                                     for 2005 and 2004 as recommended in this report.
AUD/IP-08-19                         Safeguarding Domestic Passport Applications During Tran-                      3/08
                                     sit
                    1                OIG recommended that the Bureau of Consular
                                     Affairs direct the Ofﬁce of Passport Services to
                                     modify the Passport Agent’s Reference Guide to
                                     deﬁne the minimum standards for a secure area,
                                     such as placing the applications in a locked container
                                     until all the applications are transported, and issue a
                                     notice to all acceptance agents regarding this change.
                    2                OIG recommended that the Bureau of Consular
                                     Affairs direct the Ofﬁce of Passport Services to
                                     include provisions in its acceptance agent oversight
                                     program for monitoring the effectiveness of accep­
                                     tance agents in securing passport applications.
                    3                OIG recommended that the Bureau of Consular
                                     Affairs direct the Ofﬁce of Passport Services to
                                     require non-USPS acceptance agents to send pass­
                                     port applications in a traceable manner, such as with
                                     deliver conﬁrmation, and to retain the receipts for a
                                     year.
                    4                OIG recommended that the Bureau of Consular Af­
                                     fairs direct the Ofﬁce of Passport Services to work
                                     with ofﬁcials from the Department of the Treasury
                                     to review the process used to transport passport
                                     applications from the lockbox facilities to passport
                                     agencies and to develop a workload distribution
                                     analysis that reduces the use of routes with numer­
                                     ous transfers.




     Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
     Ofﬁce                                                                                                          81
Report Number Rec. No.           Report Title                                                         First Reported

                                 Recommendation Summary
                5                OIG recommended that the Bureau of Consular
                                 Affairs direct the Ofﬁce of Passport Services to
                                 require that anyone without a need to access ap­
                                 plications (such as contracted cleaning, repair, and
                                 maintenance personnel) be escorted by Ofﬁce of
                                 Passport Services personnel and kept in direct visual
                                 sight.
                6                OIG recommended that the Bureau of Consular
                                 Affairs direct the Ofﬁce of Passport Services to
                                 (a) secure passport applications in locked cabinets,
                                 containers, or rooms when not actively being pro­
                                 cessed and (b) amend the internal controls program
                                 accordingly.
                7                OIG recommended that the Bureau of Consular Af­
                                 fairs direct the Ofﬁce of Passport Services to issue
                                 an advisory notice within 14 days of the issuance of
                                 this audit report to all acceptance agents informing
                                 them of the Inspector General’s authority to review
                                 passport records as speciﬁed in the Inspector Gen­
                                 eral Act.
                8                OIG recommended that the Bureau of Consular
                                 Affairs direct the Ofﬁce of Passport Services to
                                 modify the Passport Agent’s Reference Guide to re­
                                 quire agents to make their passport records available
                                 for monitoring, audit, or investigation.
                9                OIG recommended that the Bureau of Consular
                                 Affairs direct the Ofﬁce of Passport Services to
                                 modify the provisions in the designation letter to
                                 make passport records available for monitoring, au­
                                 dit, or investigation and reissue the designation letter
                                 for all acceptance agents.
AUD/CG-08-23                     Independent Accountants’ Report on the Application of                           5/08
                                 Agreed-Upon Procedures on Indirect Cost Rates Proposed by
                                 the Council on International Educational Exchange, Inc.
                1                OIG recommended that the Bureau of Administra­
                                 tion, Ofﬁce of Logistics Management, Ofﬁce of
                                 Acquisitions Management, International Programs
                                 Division, accept and ﬁnalize the indirect cost rates
                                 for ﬁscal years 2005, 2004, and 2003 as recommend­
                                 ed in this report.


      82    Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Report Number Rec. No.	               Report Title                                                         First Reported

                                      Recommendation Summary
AUD/CG-08-32	                         Independent Accountants’ Report on the Application of                          8/08
                                      Agreed-Upon Procedures on Indirect Cost Rates Proposed by
                                      Nacel Open Door, Inc.
                      3	              OIG recommended that the Department’s Bureau
                                      of Educational and Cultural Affairs (ECA) require
                                      Nacel Open Door, Inc., to (a) establish appropriate
                                      policies and procedures to ensure that costs under
                                      the grants are adequately documented and ac­
                                      counted for in accordance with applicable Ofﬁce of
                                      Management and Budget circulars and (b) provide
                                      information so that ECA can make an appropriate
                                      determination on the unsupported costs of $94,524.




Previously Reported Signiﬁcant Inspections
Recommendations Pending Final Action
Report Number Rec. No.               Report Title                                                          First Reported
                                     Recommendation Summary
ISP-C-07-04                          Compliance Follow-up Review of the Inspection of the    10/06
                                     USIBWC
                     1               OIG recommended the Bureau of Western Hemi­
                                     sphere Affairs, in coordination with the Bureau of
                                     Legislative Affairs, the Ofﬁce of the Legal Adviser,
                                     and the Bureau of Human Resources, seek legisla­
                                     tion making the U.S. Section of the International
                                     Boundary and Water Commission an entity of the
                                     Department of State.
ISP-I-07-16                          Inspection of the Bureau of Human Resources (Phase I)   5/07
                     33              The Bureau of Human Resources should, in coor­
                                     dination with the Bureau of Resource Management,
                                     establish a global savings mechanism to supplement
                                     the locally employed staff ’s retirement plan. (Action:
                                     HR, in coordination with RM)




      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
      Ofﬁce                                                                                                           83
 Report Number Rec. No.                Report Title                                                         First Reported
                                       Recommendation Summary
 ISP-I-07-21                           Inspection of the Bureau of Administration, Ofﬁce of Lo- 5/07
                                       gistics Operations and Ofﬁce of Program Management and
                                       Policy
                       10              OIG recommended the Bureau of Resource Man­
                                       agement, in coordination with the Bureau of Ad­
                                       ministration, establish procedures in the Foreign
                                       Affairs Manual to require that all bureau and ofﬁce
                                       heads, and chiefs of mission assure in their manage­
                                       ment controls certiﬁcations that an inventory was
                                       conducted and reconciled with property records and
                                       that the results were submitted.
                       13              OIG recommended the Bureau of Administration
                                       revise regulations to eliminate the criteria allowing
                                       the authorization of adjustments when shortages
                                       total less than 1 percent of the stated inventory
                                       value and, when a shortage exists, instead require
                                       all domestic and overseas entities to submit either
                                       the applicable Property Survey Report or Property
                                       Disposal Authorization and Survey Report with the
                                       inventory certiﬁcation.
                       22              OIG recommended the Bureau of Resource Man­
                                       agement, in coordination with the Bureau of Ad­
                                       ministration, establish and implement a system to
                                       pay the U.S. Postal Service and bill and collect re­
                                       imbursement from other agencies for postal service
                                       provided to posts being converted to Department-
                                       managed postal operations.
                       27              OIG recommended the Bureau of Human Resourc­
                                       es, in coordination with the Bureau of Administra­
                                       tion, establish a logistics management function skill
                                       code and a logistics certiﬁcation program for logis­
                                       tics professionals worldwide.
 ISP-I-09-12                           Currency Exchange Rates Differing from Local Legally     11/08

                                       Available Rates
                       1               OIG recommended that the Ofﬁce of the Legal
                                       Adviser, in coordination with the Bureaus of Hu­
                                       man Resources and Resource Management, add a
                                       provision in the Foreign Affairs Manual that would
                                       require Chiefs of Mission to seek approval from the
                                       Department for authorizing foreign currency trans­
                                       action at other than local legally approved rates.



84     Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Report Number Rec. No.                   Report Title                                                 First Reported
                                         Recommendation Summary
ISP-I-09-26A                             Inspection of Embassy Suva, Fiji                   03/09
                         2               OIG recommended that Embassy Suva, in coordina­
                                         tion with the Bureaus of Democracy, Human Rights
                                         and Labor; East Asian and Paciﬁc Affairs; Interna­
                                         tional Information Programs; and Educational and
                                         Cultural Affairs, should develop and implement a
                                         program to train journalist in the region and pro­
                                         mote investigate journalism.




Revised Management Decisions

None to report.




Signiﬁcant Management Success in Resolving
and Implementing Recommendations

Independent Accountants’ Report on the Application of Agreed-Upon Proce-
dures on Final Buyout Claim by Enviro-Management & Research, Inc., Under
Contract No. S-FBOAD-98-DOO10 (AUD/CG-08-28)



OIG recommended the Bureau of Administration, Ofﬁce of Logistics Management,
Ofﬁce of Acquisitions Management, decline to pay Enviro-Management & Research,
Inc., its buyout claim under the contract and require the company to reimburse the
Department for overpayments totaling about $16,000. Upon implementation of this
recommendation, the Department ultimately recovered almost $20,000 from the com­
pany.




 Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
 Ofﬁce                                                                                                     85
Summary of Audit Reports Without
Management Decision for More Than Six
Months

Report Number: AUD/CG-05-26
Subject: Review of Selected Grants Awarded to Institute for the Study and Devel­
opment of Legal Systems
Date Issued: October 18, 2005
Reason for not being resolved: OIG sent the Bureau of Educational and Cultural
Affairs a memorandum in August 2009 emphasizing the delinquency and importance
of resolving and implementing the recommendations. In September 2009, ECA sent
an email to OIG stating that ECA had received a response from the grantee. ECA
also requested assistance from OIG or from an independent public accountant under
contract with OIG to analyze the documentation received from the Institute.
Projected date of resolution: March 2010.


Report Number: AUD/CG-06-02
Subject: Application of Agreed-Upon Procedures to George Mason University
Awards
Date Issued: February 24, 2006
Reason for not being resolved: OIG sent the Bureau of Educational and Cultural
Affairs a memorandum in August 2009 emphasizing the delinquency and importance
of resolving and implementing the recommendations. In September 2009, ECA sent
an e-mail to OIG stating that ECA had received a response from the grantee. ECA
also requested assistance from OIG or from an independent public accountant under
contract with OIG to analyze the documentation received from George Mason Uni­
versity.
Projected date of resolution: March 2010.


Report Number: AUD/FM-07-28
Subject: Internal Procurement Practices at Embassy Berlin
Date Issued: July 12, 2007
Reason for not being resolved: Embassy Berlin responded to OIG’s recommenda­
tions in a January 2008 cable. OIG determined that the actions taken by the Em­
bassy would satisfy the intent of all but one of the report’s ﬁve recommendations.
Embassy Berlin did not address the substance of the recommendation pertaining to
the development and implementation of a plan to review its procurement processes.
OIG sent Embassy Berlin a cable in September 2009 emphasizing the delinquency

86      Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
and importance of resolving and implementing the recommendation. As of Septem­
ber 2009, the Embassy had not responded.

Projected date of resolution: March 2010.



Report Number: AUD/CG-08-02 

Subject: Independent Accountants’ Report on the Application of Agreed-Upon 

Procedures on Costs Claimed by Young Men’s Christian Association of Greater New 

York Under Department of State Grants. 

Date Issued: December 19, 2007

Reason for not being resolved: As of March 2009, the Bureau of Educational and 

Cultural Affairs had not responded to OIG’s March 4 or June 10, 2008, requests for 

a response to the report’s recommendations. OIG sent ECA a memorandum in Au­
gust 2009 emphasizing the delinquency and importance of resolving and implement­
ing the recommendations. As of September 2009, ECA had not responded.

Projected date of resolution: March 2010.


Report Number: AUD/CG-08-10
Subject: Independent Accountants’ Report on the Application of Agreed-Upon
Procedures on Indirect Cost Rates Proposed by NAFSA: Association of Interna­
tional Educators
Date Issued: January 31, 2008
Reason for not being resolved: As of March 2009, the Bureau of Administration
(A Bureau), Ofﬁce of Logistics Management, Ofﬁce of Acquisitions Management,
International Programs Division, had not responded to the report’s recommenda­
tion. OIG sent the A Bureau a memorandum in August 2009 emphasizing the delin­
quency and importance of resolving and implementing the recommendation. As of
September 2009, the A Bureau had not responded.
Projected date of resolution: March 2010.




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                87
88   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
APPENDIX 5: AUDITS PERFORMED BY CONTRACTORS



AUD/FM-09-11                 Management Letter Related to the Audit of the U.S.
                             Department of State 2008 and 2007 Financial Statements
                             Leonard G. Birnbaum and Company, LLP
                             Financial Audit


AUD/FM-09-17                 Independent Auditor’s Report on the International Boundary
                             and Water Commission, United States and Mexico,
                             U.S. Section, 2008 and 2007 Financial Statements
                             Leonard G. Birnbaum and Company, LLP
                             Financial Audit


AUD/FM-09-18                 Management Letter Related to the Audit of the International
                             Boundary and Water Commission, United States and Mexico,
                             U.S. Section, 2008 and 2007 Financial Statements
                             Leonard G. Birnbaum and Company, LLP
                             Financial Audit


AUD/FM-09-19                 Independent Auditor’s Report on the Foreign Service Retire
                             ment and Disability Fund, 2008, 2007, and 2006 Financial
                             Statements
                             Leonard G. Birnbaum and Company, LLP
                             Financial Audit


AUD/FM-09-20                 Management Letter Related to the Audit of the Foreign
                             Service Retirement and Disability Fund, 2008, 2007, and 2006
                             Financial Statements
                             Leonard G. Birnbaum and Company, LLP
                             Financial Audit




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                89
AUD/CG-09-23 	          Independent Accountants’ Report on the Application of
                        Agreed-Upon Procedures on Indirect Cost Rates Proposed
                        by the National Committee on United States-China Relations,
                        Inc.
                        L.F. Harris and Associates, CPA, P.A.
                        Indirect Cost Rate Review




90    Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
BROADCASTING BOARD OF GOVERNORS

                                                AUDITS



Management Letter Related to the Audit
of the Broadcasting Board of Governors
2008 and 2007 Financial Statements
(AUD/IB-09-12)

During the audit of BBG’s 2008 and 2007 ﬁnancial statements, the independent ex­
ternal auditor identiﬁed internal control weaknesses or instances of noncompliance
with selected provisions of applicable laws and regulations relating to property, plant,
and equipment; undelivered orders; government purchase cards; grants management;
information security; payroll; and non-personnel expenses. The external auditor rec­
ommended that BBG take appropriate action to address these weaknesses.




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                93
94   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
                                             INSPECTIONS



Inspection of Voice of America News Bureau,
London (ISP-IB-09-46)


The Voice of America (VOA) London News Bureau was doing an excellent job with
a reduced staff. Its modern studio and motivated staff had the capability to expand
their efforts, without additional personnel, to make full use of the platform provided
by the bureau to other interested VOA language services. Some of the London News
Bureau’s operational procedures and standards could be improved.



Review of Voice of America’s Deewa Radio
Journalistic Controls (ISP-IB-09-67)

The Broadcasting Board of Governors created Deewa Radio at Voice of America in
2006. Its target audience is the Pashtun population on the Pakistan side of the coun­
try’s troubled border region with Afghanistan. Deewa Radio provides the United
States with a vital communications link to a region of major signiﬁcance to U.S.
foreign policy and national security.

An effective system of review was in place in Deewa Radio and the South Asia divi­
sion of VOA to ensure that the broadcasted material met VOA standards for ac­
curacy and balance. If Deewa Radio continues to grow, VOA will have to take into
account its staff size and training requirements to maintain continued effectiveness
and quality.




   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
   Ofﬁce                                                                                                95
96   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
                                      INVESTIGATIONS



Follow Up-Actions
OIG conducted an investigation of a BBG employee who received Metrocheck
beneﬁts even though she was driving in to work nearly every day. A surveillance
conducted on the employee was able to demonstrate that the employee was not using
her Metrochecks for commuting expenses. On November 20, 2008, the employee
was interviewed by OIG and admitted to her activities and immediately repaid BBG
$3,780 for the cost of the Metrochecks. The case was declined for criminal prosecu­
tion by the Department of Justice. On July 29, BBG proposed termination for the
employee. (See OIG Semi-Annual Report, October 1, 2008 to March 31, 2009, pp 83) (07­
031)




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                97
98   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
APPENDIX 1: BROADCASTING BOARD OF GOVERNORS INVESTIGATIVE ACTIVITIES



             Preliminary Inquiries
             Opened                                                0
             Closed                                                0

             Investigations
              Opened                                               0
              Closed                                               1
              Pending (9/30/09)                                    0

             Criminal Actions
             Referrals for Prosecution                             0
             Indictments/Informations                              0
             Convictions                                           0
             Sentencings (Months Imprisonment)                     0
             Sentencings (Months Probation)                        0
             Declinations                                          0

             Civil Actions
             Civil Referrals                                       0
             Civil Judgments                                       0
             Civil Declinations                                    2

             Administrative Referrals
             Referrals for Personnel Action                        0
             Suitability Referrals to DS                           0

             Administrative Actions
             Removals                                              1
             Suspensions                                           0
             Reprimand/Admonishments                               0
             Debarment Actions                                     0

             Monetary Recoveries
             Criminal Fines/Recoveries                             $0
             Civil Recoveries                                      $0
             Administrative Recoveries                             $0
             Total Investigative Recoveries                        $0




         Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
         Ofﬁce                                                                                                99
100   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
                     APPENDIX 2: REPORTS ISSUED


 Report Number               Report Title
 AUD/IB-09-12                Management Letter Related to the Audit of BBG’s 2008 and
                             2007 Financial Statements
 ISP-IB-09-46                Inspection of Voice of America News Bureau, London
 ISP-IB-09-67                Review of Voice of America’s Deewa Radio Journalistic
                             Controls




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                101
102   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES

                                  Table 1

                  INSPECTOR GENERAL ISSUED AUDIT REPORTS

                          WITH QUESTIONED COSTS 


          Type of Report                             Number of          Questioned          Unsupported
                                                      Reports                 Costs                Costs
                                                                         (Dollars in          (Dollars in
                                                                        Thousands)           Thousands)
   A.	    For which no management decision                0                        $0                  $0
          has been made by the commence­
          ment of the reporting period


   B.	    Which were issued during the re-                0                         $0                 $0
          porting period
          Subtotals (A + B)                               0                         $0                 $0

   C.	    For which a management decision                                           $0                 $0
          was made during the reporting
          period

          (i) dollar value of disallowed costs            0	                        $0                 $0


          (ii) dollar value of costs not disal-           0                         $0                 $0
          lowed
   D.	    For which no management decision                0                         $0                 $0
          has been made by the end of the
          reporting period


          Reports for which no manage-                    0                         $0                 $0
          ment decision was made within six
          months of issuance




  Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
  Ofﬁce                                                                                                     103
                                  Table 2

                INSPECTOR GENERAL ISSUED AUDIT REPORTS

                   WITH RECOMMENDATIONS THAT FUNDS 

                          BE PUT TO BETTER USE 


      Type of Report                                             Number of              Dollar Value
                                                                  Reports            (in Thousands)
A.	 For which no management decision has                             0                            $0
    been made by the commencement of the
    reporting period
B.	   Which were issued during the reporting                           0                              $0
      period
      Subtotals (A + B)                                                0                              $0

C.	 For which a management decision was                                                               $0
    made during the reporting period
    (i) dollar value of recommendations that                           0                              $0
    were agreed to by management
      *based on proposed management action                             0                              $0
      *based on proposed legislative action                            0                              $0
      (ii) dollar value of recommendations that                        0                              $0
      were not agreed to by management
D.	 For which no management decision has                               0                              $0
    been made by the end of the reporting
    period
      Reports for which no management                                  0                              $0
      decision was made within six months of
      issuance




104     Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
   APPENDIX 4: AUDITS PERFORMED BY CONTRACTORS


AUD/IB-09-12              Management Letter Related to the Audit of the Broadcasting
                          Board of Governors 2008 and 2007 Financial Statements
                          Leonard G. Birnbaum and Company, LLP
                          Financial Audit




  Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
  Ofﬁce                                                                                                105
106   Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
                                    ABBREVIATIONS

A/LM/AQM                     Bureau of Administration, Ofﬁce of Logistics Management,
                             Ofﬁce of Acquisitions Management

AF                           Bureau of African Affairs

BBG                          Broadcasting Board of Governors

CA                           Bureau of Consular Affairs

CA/PPT                       Passport Services, CA

CIGIE                        Council of Inspectors General on Integrity and Efﬁciency

COR                          Contracting ofﬁcer’s representative

DCM                          Deputy chief of mission

Department                   U.S. Department of State

DS                           Bureau of Diplomatic Security

DS/EX                        Executive Directorate, DS

DS/EX/CFO                    Ofﬁce of the Chief Financial Ofﬁcer, DS/EX

ECA                          Bureau of Educational and Cultural Affairs

FAR                          Federal Acquisition Regulation

FISMA                        Federal Information Security Management Act

FRUS                         Foreign Relations of the United States

HO                           Ofﬁce of the Historian

HR                           Bureau of Human Resources

ICASS                        International Cooperative Administrative Support Services

LE                           Locally employed

MERO                         Middle East Regional Ofﬁce

NEC                          New embassy compound

NSDD-38                      National Security Decision Direction-38




Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
Ofﬁce                                                                                                107
OBO                       Bureau of Overseas Buildings Operations

OIG                       Ofﬁce of Inspector General

PIERS                     Passport Information Electronic Records System

PPA                       Prompt Payment Act

PRT                       Provincial Reconstruction Teams

REO                       Regional Embassy Ofﬁce

RRT                       Regional Reconstruction Team

RSO                       Regional Security Ofﬁcer

SAR                       Semiannual Report to the Congress

USAID                     U.S. Agency for International Development

USTC                      U.S. Training Center

USIBWC                    International Boundary and Water Commission, United
                          States and Mexico, U.S. Section

VOA                       Voice of America




108     Ofﬁce of Inspector General Semiannual Report to the Congress, April 1, 2009, to September 30, 2009
                   INDEX   OF   R E P O RT I N G R E Q U I R E M E N T S 

              INSPECTOR GENERAL ACT            OF    1978,     AS AMENDED





REQUIREMENT                             SUBJECT                               PAGE NUMBERS

Section 4(a)(2)     Review of legislation and regulations                     15

Section 5(a)(1)     Summary of Signiﬁcant problems, abuses, and deﬁciencies    3-10

Section 5(a)(2)     Signiﬁcant recommendations for corrective action          86-87

Section 5(a)(3)     Prior signiﬁcant recommendations unimplemented            77-85

Section 5(a)(4)     Matters referred to prosecutive authorities               63-67, 97

Section 5(a)(5)     Information or assistance refused                         none

Section 5(a)(6)     List of reports issued                                    71-72, 101

Section 5(a)(7)     Summaries of signiﬁcant reports                           29-62, 93-95

Section 5(a)(8)     Audit reports–questioned costs                            75, 103

Section 5(a)(9)     Audit reports–funds to be put to better use               76, 104

Section 5(a)(10)    Prior audit reports unresolved                            86-87

Section 5(a)(11)    Signiﬁcant revised management decisions                   none

Section 5(a)(12)    Signiﬁcant management decisions with which
                    OIG disagreed                                             none
